<html>
<title> - DEFINING AND MAPPING BROADBAND COVERAGE IN AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
           DEFINING AND MAPPING BROADBAND COVERAGE IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2017

                               __________

                           Serial No. 115-40
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           
                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-635                 WASHINGTON : 2018      
 
 
 
 
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................
Hon. Bill Johnson, a Representative in Congress from the State of 
  Ohio, opening statement........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8

                               Witnesses

Doug Brake, Senior Analyst, Telecom Policy, Information 
  Technology and Innovation Foundation...........................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   122
J. Brent Legg, Vice President of Government Affairs, Connected 
  Nation.........................................................    23
    Prepared statement...........................................    25
Robert Wack, President, Westminster City Council, Westminster, 
  Maryland.......................................................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   125
Carol Mattey, Principal, Mattey Consulting, LLC..................    45
    Prepared statement...........................................    47
Bryan Darr, President and CEO, Mosaik............................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................   129

                           Submitted Material

Article entitled, ``The Westminster P3 Model,'' by Robert Wack, 
  Broadband Communities, November/December 2015, submitted by Mr. 
  Doyle..........................................................   105
Statement of the Connecticut Consumer Counsel, submitted by Mr. 
  Doyle..........................................................   109
Statement of the Satellite Industry Association, submitted by 
  Mrs. Blackburn.................................................   114
Article entitled, ``Sorry, Chairman Pai: Your Investment Numbers 
  Don't Add Up,'' Free Press.....................................   118


           DEFINING AND MAPPING BROADBAND COVERAGE IN AMERICA

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Flores, Brooks, 
Collins, Walters, Costello, Walden (ex officio), Doyle, Welch, 
Clarke, Loebsack, Ruiz, Eshoo, Butterfield, Matsui, McNerney, 
and Pallone (ex officio).
    Staff Present: Elena Brennan, Legislative Clerk, Energy and 
Environment; Kelly Collins, Staff Assistant; Zachary Dareshori, 
Staff Assistant; Chuck Flint, Policy Coordinator, 
Communications and Technology; Adam Fromm, Director of Outreach 
and Coalitions; Gene Fullano, Detailee, Communications and 
Technology; Giulia Giannangeli, Legislative Clerk, Digital, 
Commerce, and Consumer Protection/Communications and 
Technology; Kelsey Guyselman, Counsel, Communications and 
Technology; Bijan Koohmaraie, Counsel, Digital, Commerce, and 
Consumer Protection; Tim Kurth, Senior Professional Staff, 
Communications and Technology; Lauren McCarty, Counsel, 
Communications and Technology; Drew McDowell, Executive 
Assistant; Katie McKeough, Press Assistant; Alex Miller, Video 
Production Side and Press Assistant; Paul Nagle, Chief Counsel, 
Digital, Commerce, and Consumer Protection; Dan Schneider, 
Press Secretary; Madeline Vey, Policy Coordinator, Digital, 
Commerce, and Consumer Protection; Evan Viau, Staff Assistant; 
Hamlin Wade, Special Advisor, External Affairs; Jeff Carroll, 
Minority Staff Director; Alex Debianchi, Minority Telecom 
Fellow; Evan Gilbert, Minority Press Assistant; David Goldman, 
Minority Chief Counsel, Communications and Technology; Jerry 
Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; and Dan Miller, Minority Policy Analyst.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The committee will come to order.
    As we begin today, and before I recognize myself for an 
opening, I would like for us to remember Steve Scalise, a 
member of this committee, and also those that were involved in 
the shooting last week. And I thank Mr. Doyle, who is the team 
manager, team leader for the Democrats' victorious baseball 
team, for the gesture of kindness last week in sharing the 
trophy.
    And at this time, I recognize myself for 5 minutes for an 
opening. And welcome to all of you to our subcommittee hearing, 
which is titled ``Defining and Mapping Broadband Coverage in 
America.'' Delighted to see the interest in this topic and 
delighted that you all are here. And I thank our witnesses for 
appearing as we examine the definition of broadband and 
existing challenges in updating the National Broadband Map 
which has not occurred since June 2014, if you can believe 
that.
    Broadband is the infrastructure challenge of this decade, 
and the digital divide continues to plague rural America in 
particular. We must be good stewards of taxpayer money by 
ensuring that there is access to accurate data so that areas 
with the greatest need for broadband services are targeted by 
both public and private investments.
    This hearing will be divided into two discussions: Defining 
broadband coverage and mapping broadband coverage. The FCC 
redefined minimum broadband download speeds at 25 megabits per 
second in 2015 as part of its broadband progress report. This 
represented a dramatic shift from the previous standard of 4 
megabits per second and resulted in a significant change in the 
number of Americans considered covered by broadband. Broadband 
services and usage run the gamut from basic and light to 
advanced and high.
    Americans utilize the internet for a variety of things, and 
we realize that there is increasing demand for higher speeds. 
However, we should examine whether a totality of the 
circumstances test is perhaps appropriate in determining how we 
define broadband connectivity. Particular weight should be 
given to factors such as the current level of coverage, or lack 
thereof, and the cost of deployment.
    Mapping broadband coverage will be a second discussion 
point. Each administration has taken action to spur broadband 
deployment, beginning with the Clinton administration's efforts 
in 1995, when GSA tried to streamline the permitting process 
for wireless antennas. Approximately $7.2 billion in Federal 
grants and loans were awarded through NTIA's BTOP and the RUS 
BIP as a part of the Obama administration's American Recovery 
and Reinvestment Act of 2009. $293 million of this money went 
to the state broadband initiative, which numerous states used 
to create public/private partnerships to generate a map. NTIA 
had authority over the National Broadband Map, but it was 
transferred to the FCC when BTOP funding to update the map ran 
out in June 2014. More importantly, a GAO analysis of the 
ARRA's implementation revealed that data collection methods 
needed improvement in order to be more effective.
    In short, billions in taxpayer money was spent on broadband 
deployment by the last administration but failed to achieve 
desired results as little more than 183,000 miles of network 
infrastructure was built. The economic, educational, and 
healthcare opportunities that come with unleashing broadband 
are undeniable.
    I love this report. It is an essential report. And it notes 
that smart cities' growth could result in a $500 billion impact 
on GDP over 10 years. However, accurately defining broadband 
and ensuring access to accurate mapping data is imperative so 
that hardworking taxpayer money targets areas most in need of 
broadband service.
    Those who do not learn from the mistakes of the past are 
doomed to repeat them, so let's learn and let's not repeat the 
mistakes. We should proceed as expeditiously as possible but 
with caution and with wisdom from those learned mistakes.
    At this time, I yield back my time, and I recognize the 
gentleman from Pennsylvania for his opening statement.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome everyone to the Communications and Technology 
Subcommittee's hearing titled ``Defining and Mapping Broadband 
Coverage in America''. Also, thank you to the witnesses for 
appearing as we examine the definition of broadband and 
existing challenges in updating the National Broadband Map--
which has not occurred since June 2014. Broadband is the 
infrastructure challenge of this decade and the ``digital 
divide'' continues to plague rural America in particular. We 
must be good stewards of taxpayer money by ensuring that there 
is access to accurate data so that areas with the greatest need 
for broadband services are targeted by public and private 
investments.
    This hearing will be divided into two discussions: 
``Defining Broadband Coverage'' and ``Mapping Broadband 
Coverage''. The FCC redefined minimum broadband download speeds 
at 25 megabits per second in 2015 as part of its Broadband 
Progress Report. This represented a dramatic shift from the 
previous standard of 4 megabits per second and resulted in a 
significant change in the number of Americans considered 
covered by broadband. Broadband services and usage run the 
gamut from basic and light to advanced and high. Americans 
utilize the Internet for a variety of things and we realize 
that there is increasing demand for higher speeds. However, we 
should whether a ``totality of the circumstances'' test is 
perhaps appropriate in determining how we define broadband 
connectivity. Particular weight should be given to factors such 
as the current level of coverage--or lack thereof, and cost of 
deployment.
    Mapping broadband coverage will be a second discussion 
point. Each Administration has taken action to spur broadband 
deployment beginning with the Clinton Administration's efforts 
in 1995 when GSA tried to streamline the permitting process for 
wireless antennas. Approximately $7.2 billion in Federal grants 
and loans were awarded through NTIA's Broadband Technology 
Opportunity Program or ``BTOP'' and the RUS Broadband 
Initiative Program or ``BIP'' as a part of the Obama 
Administration's American Recovery and Reinvestment Act (ARRA) 
of 2009. $293 million dollars of this money went to the State 
Broadband Initiative, which numerous states used to create 
public-private partnerships to generate a map.
    NTIA had authority over the National Broadband Map, but it 
was transferred to the FCC when BTOP funding to update the map 
ran out in June 2014. More importantly, a GAO analysis of the 
ARRA's implementation revealed that data collection methods 
needed improvement in order to be more effective. In short, 
billions in taxpayer money was spent on broadband deployment by 
the last Administration, but failed to achieve desired results 
as little more than 183,000 miles of network infrastructure was 
built.
    The economic, educational and healthcare opportunities that 
come with unleashing broadband are undeniable. A recent 
Accenture report notes that smart cities growth could result in 
a $500 billion impact on GDP over ten years. However, 
accurately defining broadband and ensuring access to accurate 
mapping data is imperative so that hard-working taxpayer money 
targets areas most in need of broadband service. Those who do 
not learn from the mistakes of the past are doomed to repeat 
them. We should proceed as expeditiously as possible, but with 
caution.
    Thank you.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair. I want to thank you for 
holding this hearing and say thank you to the witnesses for 
being here. I also want to take a moment, in light of the 
events last week, to reiterate to my colleagues on the 
Republican side of the aisle and to the public that while 
Republicans and Democrats may disagree on a lot, we share many 
of the same goals and aspirations: We love our country, and we 
want to do well by the people who have sent us here to 
represent them.
    We also agree that broadband deployment is critical for the 
future of our Nation and for our economy. And while much 
progress has been made to bridge the digital divide, we are 
still struggling to connect unserved and underserved 
communities across the country.
    While the FCC continues to make critical investments in 
broadband deployment through the Universal Service Fund, we are 
still falling short in terms of meeting the needs of 
underserved Americans.
    Ranking Member Pallone, myself, and the rest of our side of 
the committee have put forward an infrastructure proposal that 
would invest an additional $40 billion in broadband deployment. 
This investment could significantly close the broadband 
deployment gap and bring high-speed internet service to 98 
percent of the country. Representatives Loebsack and Ruiz also 
have bills that respectively seek to improve mobile coverage 
maps and expand and improve universal service funding on Tribal 
lands. And Representatives Welch and McKinley have a bipartisan 
bill that directs the FCC to establish standards for what 
constitutes reasonably comparable service in rural and urban 
areas. These bills all have merit, and I strongly urge the 
chairman to allow this subcommittee to consider these bills.
    I would also, again, urge the chairman to call the FCC 
before this committee for an oversight hearing. The oversight 
hearing that was scheduled for March 8 has never been 
rescheduled. The commission has received roughly 5 million 
comments in their proceedings to eliminate net neutrality 
rules, and they have yet to come before this committee to 
address the public's concerns. I hope that we can work together 
and get a hearing scheduled with the commission as soon as 
possible.
    With that, I would like to yield 1 minute to the gentlelady 
from California, Ms. Matsui, and then an additional minute to 
Representative McNerney.
    Ms. Matsui. Thank you very much, Mr. Doyle, for yielding me 
time.
    I appreciate the subcommittee's continued focus on 
broadband infrastructure, but I am disappointed that we are 
having another hearing exploring the topic rather than a 
legislative hearing to advance the bills we have worked on. I 
hope that this committee takes action to ensure everyone has 
access to the tools they need to succeed in the digital 
economy.
    Whether you live in an urban district, like my 
congressional district in Sacramento, or a rural area, there 
are many challenges to broadband deployment. Affordable access 
to truly high-speed broadband for every American is going to 
require significant and sustained Federal investments. Those 
investments should include improving our Federal broadband 
data. The National Broadband Map has not been updated in 3 
years, and the public is losing out without this important 
tool. That data was used by communities across the country 
whether it was connecting small businesses in New York or 
saving jobs in rural Utah.
    We all want the United States to have world-class 
communications networks, and we should have the data that shows 
whether we are truly leading the global economy. This has been 
a bipartisan issue, and I urge my colleagues to work with us on 
real solutions.
    Thank you, and I yield to my colleague.
    Mr. McNerney. I thank the ranking member for yielding time 
to me, and I thank the chair and the ranking member for holding 
the hearing today.
    As we examine the issue of broadband access, I want to 
highlight the importance of this issue to our Nation's 
veterans. Access to broadband internet service is critical to 
the more than 20 million veterans across our Nation. Having 
broadband internet access helps veterans apply for jobs, obtain 
vocational training, communicate with friends and family, and 
access services at the VA.
    Without broadband internet access, it is difficult to fully 
participate in today's society. Veterans face many challenges 
when they return home, and not having internet access makes 
what can be a tough transition process even harder. This is 
especially important for the more than 1.4 million veterans 
living below the Federal poverty level and the 5.3 million 
veterans living in rural areas.
    Last Congress, I introduced bipartisan legislation that 
would put us on a path to helping more veterans get access to 
internet service. This bill passed the House. It is my hope 
that this year we can move this bill again and this time get 
the Senate to move on it, although, we don't have any control 
of that.
    With that, I thank the ranking member and yield back.
    Mr. Doyle. And, Madam Chair, I would like to ask unanimous 
consent to enter into the record letters from the City of 
Westminster, the Consumer Council, and the Satellite Industry 
Association.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Johnson, we will yield to you. We are waiting for the 
chairman. I know he has an opening statement he wants to make.
    So I yield to Mr. Johnson for 5 minutes.

  OPENING STATEMENT OF HON. BILL JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Johnson. Well, thank you, Madam Chair. I won't use the 
entire 5 minutes, but let me just say how glad I am that we are 
having this hearing and others yet to follow in the coming 
weeks and months.
    This is a tremendously important topic for people that live 
in rural America. I can tell you that in eastern and 
southeastern Ohio, I have young people that have to go to a 
neighboring town and drive some distance to be able to get 
access to do their homework and to do their school research 
projects.
    I don't know about you, but I never had to go to Tim 
Hortons to do my homework, but that is where some of them have 
to go to a neighboring town where they can get a Wi-Fi 
connection, if they can get a Wi-Fi connection. And so it is 
really important.
    I was in Youngstown, which is not so much rural, by the 
way, a very industrialized city, an island, an enclave of 
businesses just outside of Youngstown; yet, all they have is 
DSL capability, and the business is struggling. They want to 
grow. They are prepared to grow. They want to hire more people, 
but they can't advance their business because they can't get 
access to broadband internet capability.
    So, Madam Chair, count me in, full speed ahead. Let's get 
this problem solved for America.
    Mrs. Blackburn. I thank the gentleman for his leadership on 
this issue.
    Is there any other member on the Republican side seeking 
time?
    A couple of points, my Democratic colleagues have raised 
it, I just want to touch on. The reason we are doing this is 
because we do think this hearing is important to how we close 
the digital divide, and we are focusing on those infrastructure 
needs for broadband, the mapping issue, which is important.
    The FCC commissioners, to my colleague from Pennsylvania, 
we have been working with them to reschedule a date. We 
anticipate having them before us in July. We will keep you 
posted on this.
    On the concerns that I know Mr. Pallone has about net 
neutrality, you know that the FCC is dealing with that, and it 
would be premature for us to discuss those issues before or not 
to discuss but to take an action before the commission finishes 
their work.
    And on the privacy issue, we had a very robust debate with 
this around the CRA process to set aside those FCC rules that 
had not yet been implemented and reserve the status quo on that 
issue. And I will say to my colleagues, I would be happy to 
discuss my BROWSER act with you on the privacy issue.
    And we have reached out to all the Democratic offices in 
the House on this issue, and I will say this: It was 
disappointing to me to get a response from one Democratic 
office that suggested when I did the Dear Colleague, and I am 
quoting from that response, ``Can you please remove the 200 
other people who have expressed no interest in engaging in this 
topic.''
    So that was disappointing. I do hope that my colleagues do 
want to engage on privacy and that indeed we can move forward 
on this issue this year.
    And the chairman has arrived and I will yield to Chairman 
Walden the balance of the time.
    Mr. Walden. I thank the gentlelady. I thank the chairwoman 
for her leadership on these communications and privacy issues.
    If you asked somebody in rural America, like in my giant 
district in eastern Oregon, whether they have broadband access 
that meets the speeds quota as defined by the FCC, they likely 
don't know. But if you ask them whether they get internet 
access to match their needs, they can probably give you a quick 
yes or no answer.
    That should be our primary objective as policymakers 
looking to allocate Federal resources, counting for consumer 
demand, putting the consumer first, and getting the most people 
the best access we can to a productive level of internet 
service.
    People in the remote parts of our country, including in 
Oregon, and other unserved parts of our country probably would 
tell you they would be happy just to have a connection, because 
some of them don't have that today, as you all know.
    And so that is the importance of, I think, this hearing and 
the work that we are doing going forward is figuring out how do 
you connect the unconnected. They should not be left behind in 
America, whether you are in Montana or Wyoming or Oregon or 
North Dakota or an urban setting where there are issues as 
well.
    So I think this is really important that we have this 
discussion about mapping. We learned a lesson frankly the hard 
way from our experience with the rural utilities service and 
the 2009 Recovery Act. As outlined by an investigator with the 
nonpartisan Government Accountability Office, he said, ``We are 
left with a program that spent 3 billion. We really don't know 
what became of it.'' And that is because at the time that went 
through the money went out before the maps were drawn.
    And I hope this time when we look at infrastructure 
expansion in America to connect places that we hit the mapping 
first. We focused on the areas that are unserved first and 
connect this country to one of the most important economic and 
social tools in our history.
    With that, Madam Chair, I yield back the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    If you ask someone in rural America--like my district in 
Oregon--whether they have broadband access that meets the 
speeds `as defined by the Federal Communications Commission,' 
they probably don't know. But if you ask them whether they get 
internet access to match their needs, they can probably give 
you a quick ``yes'' or ``no'' answer.
    That should be our primary objective as policy makers 
looking to allocate federal resources-accounting for consumer 
demand, and getting the most people access to a productive 
level of internet service. People in the most remote parts of 
Oregon and other unserved parts of our country probably would 
tell you they'd be happy with just about any level of high-
speed internet service, they just want to be connected. While 
we want to be sure that everyone can participate in the modern 
digital economy, we should also make sure that any definition 
of broadband is driven by what an average consumer needs, not 
just an arbitrary standard.
    I think we all agree that there are places in our country 
where private investment would never go, but in order to 
identify those places, we must take the time to properly study 
where an infusion of infrastructure funding will be most 
effective. As we continue our discussions around broadband 
infrastructure, we must ensure we are prepared to offer 
effective solutions with the precious federal dollars that may 
be available, and that means starting with reliable data to 
identify those Americans that are most in need. Without the 
best data available, we will continue to leave rural areas 
behind. What we've unfortunately seen over the years of debate 
on how to deliver fast, reliable internet access to all 
Americans, is that the folks that need it most often get lost 
in the rush to dole out government funds. All we have at the 
end of such exercises is failed government intervention in the 
marketplace. If earlier efforts had been successful we wouldn't 
be having this conversation today.
    We learned this lesson the hard way from our experience 
with the Rural Utilities Service and the 2009 Recovery Act. As 
outlined by an investigator with the nonpartisan Government 
Accountability Office, ``we are left with a program that spent 
$3 billion and we really don't know what became of it.'' This 
time around, we must remember what happened when policy makers 
didn't take the time necessary to identify parts of the country 
that needed funds the most.
    During the debate around the funding in 2009, I pushed for 
an amendment that would require mapping before funding-and 
while my amendment was unfortunately not adopted then, I stand 
by this principle. If we intend to invest taxpayer dollars, we 
should target those resources carefully and thoughtfully. We 
owe nothing less to the hardworking people of this country.
    Let's do it right this time. Let's not repeat mistakes of 
the past, let's get the data, let's use the data, and target 
those places that need help the most. Let's connect rural 
America to new economic opportunities and increase the quality 
of life in these communities.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Three months ago to this day, this subcommittee held a 
hearing on this same topic. We heard from witnesses how in 
these uncertain economic times deploying more secure high-speed 
internet means providing more opportunities for more people. 
Yet, here we are, 90 days later, reopening that same hearing 
while we still haven't had a single hearing on important issues 
like net neutrality, privacy, or oversight of this 
administration.
    And I listened, Madam Chair, to what you said as to why 
that wasn't happening, but I don't agree. Look, first of all, 
let me say that it is quite clear that this administration 
wants to get rid of both the privacy rules at the FCC as well 
as net neutrality.
    And I have said before that on the day when we repealed the 
privacy rules in the Congress, I think the next day the 
President's spokesperson Sean Spicer had a press conference, 
and he literally said, well, now we got rid of the FCC privacy 
rules, and we are going to get rid of net neutrality next. And 
then the next week the FCC started that process. So I am not 
going to be naive enough to assume that the FCC on a partisan 
vote isn't going to get rid of net neutrality. I think that is 
clear. But regardless, there is no reason why we can't have 
hearings on both of these issues.
    Clearly, if you have a hearing, you are not necessarily 
deciding anything. You are basically having a discussion about 
the issue of net neutrality and privacy and what the FCC did 
and what the options would be moving forward. So I think that 
we should have those hearings, and, again, I will make a plea 
on behalf of the Democrats that we do that. And we also haven't 
made progress on broadband deployment even though Democratic 
members of this committee have introduced a number of good 
bills that would help deployment.
    One of our bills, called the LIFT America Act, would use a 
reverse auction to allocate $40 billion on new broadband 
deployment across the entire country. Our proposal would not 
only create new opportunities for millions of Americans, it 
would prioritize schools, libraries, and 9-1-1 services.
    Congressman Loebsack has also introduced a commonsense bill 
that would direct the FCC to improve its broadband data. We 
heard at the last hearing about all the problems with the FCC's 
data. We also heard unanimous support for Mr. Loebsack's 
proposal.
    Congressman Ruiz has introduced legislation that would make 
sure people living in Indian country don't get left behind and 
aren't ignored when it comes to broadband deployment. We should 
follow Congressman Ruiz's example and do everything we can to 
help those who live on Tribal lands.
    And finally, Congressman Welch and McKinley put forward a 
bill that would let us better compare the broadband services in 
rural areas to those in urban areas.
    But for some reason, the Republican leadership on this 
committee refused to recognize any of these bills for our 
hearing today. In fact, this is the second week in a row in 
which this subcommittee is holding hearings on topics addressed 
by our bills with no acknowledgment of the significant benefits 
that these bills would bring to the American people. These 
democratic proposals address real problems faced by real people 
and will help improve our Nation's security, opportunity, and 
connectivity. I hope the Republicans will eventually recognize 
the importance of these bills and will begin to work with us in 
moving them forward.
    And with that, I would yield the remainder of my time to 
Congressman Loebsack.
    Mr. Loebsack. Thank you, Mr. Pallone.
    As has been mentioned already, 3 months ago when our 
committee had its last hearing on broadband development, we 
heard broad agreement that the FCC's data needed improvement. 
We heard members on both sides of the aisle comment on how 
these bad data shortchanged rural America. We can all agree on 
that in this committee. And that is why I did introduce H.R. 
1546, the Rural Wireless Act. This bill directs the FCC to 
improve its data collection that feeds its broadband coverage 
map.
    During our previous hearing, I was encouraged that even the 
Republican witnesses strongly supported my bill. They testified 
that my bill is necessary to give residents of rural areas a 
chance, and I am looking forward to hearing what some of you 
folks have to say about that bill as well.
    And, folks, that is because in Iowa and many rural 
communities, and we can agree on this, I think, on a bipartisan 
basis, broadband means jobs. But in Iowa, access to broadband 
is even more than that; it is a manner of survival, literally 
survival.
    If rural communities in Iowa cannot get access to 
broadband, they simply cannot survive. And as I have said many 
times before, in order to make that happen, we need both 
dollars and good data. And as heartened as I was at the last 
hearing, I am disappointed at where we are today.
    Despite the strong expert support for my bill, this 
committee hasn't made any progress legislatively. This hearing 
is supposed to be about improving broadband data and mapping, 
but in 3 months since the last hearing, I have been 
disappointed at the lack of cooperation that we have seen 
within this committee.
    And I am not normally one, publicly to go out and complain 
about such things. I try to do what I can to cooperate with the 
other side and vice versa, but it is at a point now where we 
have really got to work together because this is that 
important.
    And I thank you very much, Mr. Pallone, for the time. And I 
yield back.
    Mrs. Blackburn. The gentleman yields back.
    Anyone else seeking time?
    No one else is seeking time. This concludes our opening 
statements. I will remind all members that pursuant to our 
committee rules you may enter that as a part of the record and 
put that opening statement in the record.
    We do thank our witnesses for being here today and taking 
the time to testify before the subcommittee. Each of you will 
have the opportunity to give an opening statement. We will 
follow it with a round of questions from members.
    Our witness panel for today's hearing includes Mr. Doug 
Brake, who is the senior Telecommunications Policy Analyst at 
the Information Technology and Innovation Foundation; Mr. Brent 
Legg, who is the Vice President of Government Affairs at 
Connected Nation; Dr. Robert Wack, who is the President of 
Westminster City Council in Westminster, Maryland; Ms. Carol 
Mattey, who is Principal at Mattey Consulting, LLC; and Mr. 
Bryan Darr, a good Tennesseean, who is President and CEO of 
Mosaik.
    Mr. Brake, we would begin with you. You are recognized for 
5 minutes.

   STATEMENTS OF DOUG BRAKE, SENIOR ANALYST, TELECOM POLICY, 
  INFORMATION TECHNOLOGY AND INNOVATION FOUNDATION; J. BRENT 
 LEGG, VICE PRESIDENT OF GOVERNMENT AFFAIRS, CONNECTED NATION; 
     DR. ROBERT WACK, PRESIDENT, WESTMINSTER CITY COUNCIL, 
    WESTMINSTER, MARYLAND; CAROL MATTEY, PRINCIPAL, MATTEY 
   CONSULTING, LLC; AND BRYAN DARR, PRESIDENT AND CEO, MOSAIK

                    STATEMENT OF DOUG BRAKE

    Mr. Brake. Thank you very much, Chairman Blackburn and 
Ranking Member Doyle and members of the subcommittee for the 
opportunity to testify before you today and share the views of 
the Information Technology and Innovation Foundation, or ITIF, 
on defining and mapping broadband in the United States. ITIF is 
a nonpartisan think tank whose mission is to formulate and 
promote public policies to advance technological innovation and 
productivity growth, with broadband policy a core concern.
    We all understand and respect the importance of broadband 
access. Broadband is necessary to participate in the 21st 
century economy. It underpins social opportunity, economic 
growth, and national competitiveness. Expanding the geographic 
footprint of the Nation's digital infrastructure should be a 
significant part of any infrastructure package.
    Thankfully, the existing private investment framework for 
broadband has seen tremendous achievement attracting capital 
expenditures that make U.S. networks an international success 
story. The light touch oversight of increasingly competitive 
broadband has worked incredibly well, overseeing dramatic 
increases in network coverage and capacity and supporting a 
flourishing U.S. digital ecosystem.
    Generally speaking, innovation and investment are best 
encouraged when infrastructure deployment can be led by the 
private sector, especially in dynamic markets like broadband. 
However, in rural or otherwise high-cost areas, it is often 
impossible to achieve adequate return to see private companies 
invest.
    A common metric for assessing the viability of a network 
build is the number of homes passed per mile of fiber. In rural 
areas, you can see that metric invert, where you are measuring 
miles of fiber per home passed, which begins to capture the 
economic challenge of covering rural America.
    Considering the tremendous benefits of broadband, more can 
and should be done to ensure that virtually all U.S. residents 
have access to robust services. In addition to existing support 
through the Universal Service Fund, a potential infrastructure 
package offers a unique opportunity to considerably accelerate 
the deployment of both fixed and mobile networks.
    But providing the funds to support more universal broadband 
is expensive, and public dollars should be targeted where they 
are most effective: In achieving our policy goals. Priorities 
should be given first to connecting the unconnected, the truly 
unserved, until costs grow untenable. Only after that task is 
completed should subsidies support increasing speeds in already 
served areas, aiming for cost-effective upgrades, not 
necessarily future proofing.
    There is a misperception that the economic benefits of 
broadband require significantly higher speed networks. Contrary 
to those who insist that gigabit fiber networks are a national 
imperative, study after study repeatedly show that the economic 
benefits of broadband investment are greatest when adding 
additional users, even if at lower speeds. Additional download 
speed sees a clear and large diminishing marginal utility, and 
lawmakers should avoid tunnel vision on achieving ever higher 
speeds. Instead, as a general matter, we should allow our 
understanding of broadband to evolve with networks themselves 
over time.
    When attempting to achieve cost-effective support 
policymakers are essentially faced with a price and quantity 
problem: How much coverage at what speed can be achieved at 
what price? Answering those questions, deciding where Federal 
support is most justified, and achieving the biggest return on 
necessarily limited investment requires well-defined policy 
goals, mapping of existing deployment, and modeling a projected 
cost, all of which the FCC has experience with.
    The FCC's Form 477 data collection process should be the 
starting point for understanding existing broadband 
deployments. The institutional knowledge and expertise at the 
FCC should be relied upon rather than standing up an expensive 
one-off mapping program. However, the Form 477 collection or 
the related challenge process may have to be refined for 
particular purposes. We will always be able to imagine more 
perfect data. For example, the granularity of Form 477 data is 
a parental concern.
    However--and this is an important point--while more 
information is generally better than less, if infrastructure 
funding is distributed through a market-based approach, such as 
reverse auctions, the need for highly detailed maps is greatly 
reduced.
    To summarize, broadband support in an infrastructure 
package should go to where it is most effective, focusing first 
on the truly unserved before aiming to support reasonable speed 
increases by one provider in a legitimately unserved area 
through an auction mechanism. We must attempt to understand how 
much coverage at what speed can be achieved for what price, but 
highly granular maps are less necessary at the more bottom-up 
your approach is.
    The FCC is experienced in both defining and mapping 
broadband. Form 477 data collection process as well as the 
streamline challenge process generally work well, and the FCC 
should be trusted to implement a broadband component of an 
infrastructure package.
    Thank you very much for the opportunity to testify, and I 
look forward to your questions.
    [The statement of Mr. Brake follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mrs. Blackburn. We thank you.
    And before I yield to you, Mr. Legg, I just want to make 
everyone aware that the moving and shaking that you are hearing 
is not something adverse. It is construction that is taking 
place in the garage of this building. So we are going to hold 
to that.
    Mr. Legg, you are recognized for 5 minutes.

                   STATEMENT OF J. BRENT LEGG

    Mr. Legg. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, thank you for inviting me to share 
our insights in this important proceeding this morning.
    My name is Brent Legg, and I am Vice President of 
Government Affairs for Connected Nation, a national nonprofit 
organization with a 16 year history of improving lives and 
strengthening communities through increased access to and 
adoption of broadband technologies.
    Headquartered in Bowling Green, Kentucky, Connected 
Nation's work has impacted more than 30 states, and we served 
as the Nation's single largest grantee under NTIA's State 
Broadband Initiative Grant Program. Under SBI, we managed 
broadband mapping projects across 12 states and one territory, 
representing 42 percent of the U.S. land mass. And our 
techniques have widely been recognized as best practices by 
NTIA, the FCC, and others.
    Today we look forward to discussing lessons learned from 
the SBI program and the current Form 477 process. Our intent is 
not to be critical but rather to foster an understanding of how 
we believe the process could be improved for the future.
    The SBI program created by Congress in 2008 enabled states 
to establish broadband mapping programs and submit data to NTIA 
twice a year, starting in 2010 through 2014. This data was used 
to create the first National Broadband Map, which unfortunately 
has not been updated since the program ended.
    In 12 states and Puerto Rico, we collected, analyzed, and 
mapped broadband data while also collecting feedback from the 
public on where revisions to the map should be made. We 
averaged provider participation rates of 95 percent, despite 
the fact that the program was largely voluntary because of the 
emphasis we placed on provider relationship building and our 
willingness to accept raw information in whatever format it was 
available, assisting providers that needed help.
    We established relationships with more than 1,200 providers 
with NDAs in place with many of them to ensure protection of 
their proprietary information. While our mapping efforts were 
highly successful, the SBI program as a whole faced a number of 
challenges. Since every state had its own mapping agent, 
multiple methodologies were employed in collecting and 
analyzing provider information and mapping the results. This 
meant that providers, many of whom operate in more than one 
State, had to juggle not only multiple points of contact and 
data requests, but they had to report their information in 
varying ways to satisfy those requests.
    Additionally, known best practices were not required to be 
adopted across all states. As the SBI program transitioned to 
the Form 477 filing process in October of 2014, we began 
mapping and refining this data for states that had chosen to 
continue their own mapping programs.
    Unfortunately, a number of challenges remain. First, Form 
477 requires providers to report census blocks where they 
provide service. Unfortunately, if one household in a given 
block is served, the entire block is considered as having 
service, resulting in a significant overstatement of 
availability. This is particularly problematic in rural areas 
where census blocks can be very large, some being larger than 
the entire State of Connecticut. Yet, these are the areas where 
broadband availability is most lacking and needs to be most 
accurately defined.
    Secondly, many smaller providers lack the technical 
capability to visualize their Form 477 filings, often resulting 
in misreported data.
    Thirdly, some known providers are simply missing from the 
477 data, meaning that they are not even filing as required.
    And fourthly, wireless coverage under Form 477 is reported 
by census block rather than from propagation modeling based on 
tower locations and signal penetration often resulting in 
significant overstatements of service.
    With these lessons learned in mind, we would like to make a 
few recommendations for the future. First, Congress must 
prioritize the accuracy and granularity of the maps to ensure 
that coverage is fully understood at the street address or 
parcel level of detail. Census block data is not sufficiently 
granular to close the Nation's broadband gaps.
    Second, such a level of granularity requires the protection 
of providers' proprietor and confidential information. The good 
news is that the public disclosure of that information isn't 
necessary to serve the public interest. Instead, it can be 
protected and analyzed by a neutral agent to derive broadband 
footprints and speed capabilities without revealing the more 
sensitive characteristics of any given network. We have proven 
that a neutral third-party aggregator of infrastructure data 
can both hold that information tightly and produce accurate and 
granular coverage from it.
    As Congress considers incentivizing broadband deployment, 
we believe that it should establish a single independent third-
party clearinghouse for broadband data collection and mapping 
that is accountable to Congress and the public, serve all 56 
state and territorial jurisdictions, and having responsibility 
for carrying out four primary tasks: First, broadband data 
collection and analysis, working with the provider community 
through a rigorous nondisclosure agreement framework; secondly, 
GIS mapping of broadband availability and speeds produced from 
infrastructure and subscriber data submitted to the providers; 
third, field validation and audits of the maps once they are 
produced; and fourth, processing feedback submitted by 
consumers to ensure that continual refinement of the maps take 
place.
    We hope that Congress will consider this independent 
clearinghouse as a path forward to informed decisionmaking on 
Federal investments, ensure accountability for those dollars as 
they are spent, and protect sensitive provider data all at the 
same time.
    We look forward to answering your questions. Thank you, 
Madam Chairman.
    [The prepared statement of Mr. Legg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mrs. Blackburn. The gentleman yields back.
    Sir, you are recognized.

                    STATEMENT OF ROBERT WACK

    Mr. Wack. Thank you, Madam Chair. Thank you members of the 
committee, Congressman Doyle, for having me here today to 
testify about broadband infrastructure.
    My name is Dr. Robert Wack, and I am the President of the 
Westminster City Council where we are building the Mid-Atlantic 
region's first community-wide gigabit fiber network. The 
Westminster fiber network was born out of decades of 
frustration waiting for our incumbent providers to upgrade 
their infrastructure and service levels. Although technically 
Westminster meets current standards for broadband service 
availability, the city's survey of businesses and residents 
revealed widespread discontent and dissatisfaction with the 
services available at that time.
    One anecdote in particular is illustrative. A local graphic 
design business, a premium customer of one of the incumbents, 
needed to send a multi-gigabyte graphics file to a client in 
the Midwest for a rush job. Their business-class internet 
connection kept timing out because the file transfer was so 
slow. To get the client's files delivered before the deadline, 
the business had to put them on a memory stick and overnight 
them in a mailing envelope. This is unacceptable in the 21st 
century data-driven economy.
    After extensive research and public input, Westminster 
settled on an innovative public/private partnership, or P3 
model, to build the first community-wide gigabit fiber network 
in the Mid-Atlantic region. Successful P3 projects are at their 
core true partnerships where both parties achieve their goals 
while sharing in the risks and rewards of that partnership in 
ways they are comfortable with and can sustain over the life of 
the deal.
    The city of Westminster entered our discussions with 
potential partners with three firmly held core principles: One, 
public ownership of the dark fibre network; two, a multitiered 
service model for the network to partition risks and 
responsibilities to separate operational layers; and three, a 
commitment to open access at the retail service level as the 
end state of the service environment. Each of these is 
important on their own but also closely interrelated.
    Only with public ownership and control can current problems 
of red lining in the growing digital divide be comprehensively 
addressed and solved. A commitment to public ownership enables 
universal access, which in turn is a major source of public 
support for the resource commitment that network construction 
requires.
    In other words, when a local government assures its 
citizens that all will benefit from an infrastructure project, 
including rural areas, public support for the necessary 
expenditures to implement that project become much easier to 
secure. That was certainly our experience in Westminster.
    The multilayer service model lays the groundwork for the 
creation of a true open-access environment at the service level 
where customers can switch providers for any given service 
without barriers. They can try new services as they are 
developed and where there is better transparency on cost and 
quality between providers.
    By lowering the barrier to entry for new providers, real 
competition can take place and service providers delivering 
better services at lower prices will be rewarded. In addition, 
there are no barriers to entry for new innovative services from 
any provider accelerating innovation and economic development. 
The consumer wins in all instances.
    In summary, the Westminster model of public/private 
partnership provides a scaleable blueprint for any local 
government of any size to implement a community-wide broadband 
network in a financially sustainable manner. By dispensing with 
the assumption of service delivery by vertical integrated 
monopolies and focusing on public ownership of the 
infrastructure, partitioning of the network operations by 
layer, and a commitment to open access, any community in the 
country can realize the economic development potential of 
massive broadband.
    The project positions Westminster to survive and prosper 
through the disruptive economic transitions created by the 
transformational information revolution and ensures that all 
our residents can participate in the economic growth and 
prosperity of decades to come.
    Thank you very much.
    [The prepared statement of Mr. Wack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mrs. Blackburn. And we thank you.
    Ms. Mattey, you are recognized.

                   STATEMENT OF CAROL MATTEY

    Ms. Mattey. Thank you very much, Chairman Blackburn and 
Ranking Member Doyle and members of the subcommittee. I am 
deeply honored to appear before you today.
    I have worked on advancing broadband in rural areas through 
the Universal Service Fund for more than a decade as deputy 
bureau chief at the FCC and now in my business as a consultant. 
I bring personal knowledge of how the FCC has used fixed 
broadband coverage data in the course of implementing the 
Connect America Fund.
    I commend you for recognizing the critical role of 
broadband infrastructure in our country. I am heartened that 
this issue is a priority for you. I am firmly convinced that 
broadband must be built in rural areas to improve education, 
healthcare, agriculture, commerce, and more. It is an 
investment worth making.
    The definition of broadband matters because where you draw 
the line determines which areas are considered unserved. The 
FCC's current definition of broadband for purposes of the 
Connect America Fund is 10 megabits downstream, 1 megabit 
upstream.
    To date, the FCC has focused its efforts on trying to get 
access to broadband service in the areas of the country that 
are lacking all together rather than upgrading networks in 
areas that have some level of service. If 25/3 megabits is set 
as the dividing line for unserved in any future infrastructure 
legislation, that would expand the geographic areas that are 
deemed unserved compared to what the FCC considers unserved 
today for purposes of the Connect America Fund.
    If Congress provides additional funding to expand broadband 
infrastructure in rural areas, it is important to consider the 
implications if one governmental agency is potentially 
providing funding to overbuild a service provider that is 
currently receiving funding from another government agency.
    It is critically important to coordinate and harmonize 
various programs administered by different Federal agencies to 
advance broadband so that the government as a whole is tackling 
the problem efficiently and not working across purposes.
    Now I will turn to the issue of determining where broadband 
is available. In my view, any future infrastructure initiative 
should focus on improving the FCC's existing data collection 
rather than starting anew. While there may be a desire to map 
fixed broadband coverage in a more granular way at the sub 
census block level, there are practical difficulties in doing 
so.
    I am not aware of any comprehensive current data set 
showing the geocoded location of every structure in the United 
States. Requiring all broadband providers in the country to 
report fixed deployment at the address level or by geocoded 
location would be a significantly more burdensome data 
collection than what exists today.
    Reporting such detail for every census block in the 
country, which number over 11 million, is unnecessary given 
that most of those census blocks are in urban and suburban 
areas that are served.
    There are other ways to improve the existing FCC data for 
use in future infrastructure initiatives. For instance, one can 
treat a block as served only if the provider makes service 
available to all locations or nearly all locations rather than 
just one location in the census block.
    In a challenge process, the FCC Form 477 data can be used 
as the starting point not the end point for determining which 
areas are served. I have firsthand experience with this, as I 
oversaw the team that conducted two challenge processes to 
determine areas that would be eligible for Connect America 
funding.
    One key to success is defining in advance what information 
is relevant to the inquiry and how it is to be submitted. There 
are several advantages to using a challenge process to refine 
the data rather than a whole-scale revision of the FCC's Form 
477 data collection.
    First, participation in a challenge process is voluntary, 
so parties can make their own determination of whether the 
regulatory benefits outweigh the regulatory burdens of such 
participation.
    Second, a challenge process is likely to focus on a much 
smaller set of rural census blocks that are likely candidates 
for new infrastructure deployment initiatives rather than the 
more numerous suburban and urban census blocks that are 
unquestionably served.
    Third, a challenge process can take into account 
information that is not part of the Form 477 data collection 
that may be of policy interest.
    To conclude, I appreciate the opportunity to appear before 
you today, and I will be happy to answer any questions you may 
have.
    [The prepared statement of Ms. Mattey follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mrs. Blackburn. I thank you.
    And, Mr. Darr, you are recognized for 5 minutes.

                    STATEMENT OF BRYAN DARR

    Mr. Darr. Good morning. My name is Bryan Darr, and I am the 
President and Chief Executive Officer of Mosaik Solutions. I 
would like to thank Chairman Blackburn, Ranking Member Doyle, 
and the fellow members of the subcommittee for this opportunity 
to speak with you.
    I appeared before this committee in March 2017 and 
appreciate the opportunity to return the focus on defining and 
mapping broadband coverage. Broadband deployment is a 
bipartisan national priority, but expanding and accelerating 
broadband deployment requires reliable information and data-
driven decisionmaking.
    Without trusted data about coverage gaps, underserved 
populations, network speeds, and other indicators, we will not 
stimulate private sector investment, advance universal service, 
expand broadband into more rural areas, or improve the 
broadband market.
    Despite healthy competition and increasingly sophisticated 
data analysis among private sector companies, the FCC has 
sought to displace this industry by mandating use of its own 
data analytics tools. The Wireless Telecommunications Bureau 
recently stated that its Form 477 coverage data is the best 
available we have today. It is not.
    The FCC's Form 477 mobile broadband coverage data is 
flawed. First, there are no defined specifications for what 
radio frequency conditions or methodologies are required. 
Second, the FCC's data is out of date almost as soon as it is 
filed. Form 477 data is too infrequently updated and has too 
large of a time gap between reporting date and release date. 
That is precisely why Mosaik's LTE coverage data sets are 
updated monthly.
    In the map shown in figure 1 we overlay the latest 
available Form 477 data with the most recent coverage data from 
T-Mobile. In the 18 months between the vintage of the FCC's 
data and our own, T-Mobile has added more than 339,000 square 
miles, covering more than 5 million people, ensuring that 
broadband funds go to areas that meet the no-service criteria 
will be more successful with access to better, fresher data.
    Better data can also help to minimize the number of 
objections brought forth during a challenge process. Higher 
quality coverage can also surgically identify unserved areas 
and enable operators to replicate these successes across the 
rest of the country.
    Relying exclusively on antiquated or inferior datasets 
threaten to harm American consumers, and the exclusion of other 
types of data threatens to crowd out private investment from 
U.S. companies that compete to provide far superior products 
about network coverage and performance.
    Just as important, private companies have long-term 
obligations to their clients. They provide a continuity of 
service and are less susceptible to the natural swings in 
priorities that affect governments.
    In a rapidly changing industry, shutting down research for 
even a few months can create a backlog of issues. Approximately 
$350 million was spent creating the original National Broadband 
Map. Once funding was discontinued, most states dropped the 
program. Three years after its release, the map is little more 
than a snapshot of a brief moment in the history of the 
broadband industry. We can do better.
    The next image, figure 3, shows how overlaying coverage for 
available tower assets can speed the site acquisition process. 
Intelligence about the surrounding telecom landscape is 
critical to defining priorities and understanding where the 
taxpayer can get the most return for their considerable 
investment.
    Some operators offer multiple levels of signal strength on 
their maps. The next map, figure 4, represents this type of 
depiction as good, better, best, which is sometimes referred to 
as on street, in car, in building.
    There is no defined industry standard as to what specific 
signal level is used to represent the demarcation between each 
of these boundaries, and different spectrum blocks have 
different abilities to travel distances and penetrate 
buildings.
    The map in figure 5 shows signal strength readings 
collected anonymously from consumer devices. This information 
is overlaid with the typical predictive RF model. No network 
can offer maximum signal quality everywhere, and frankly, that 
is not required to have a robust and high-performing network. 
Congestion can also impact the user's experience, so throughput 
speeds and latency also need to be considered.
    We commend Congress and the FCC for recognizing the 
importance of data driven decisionmaking. When government 
agencies embrace the capabilities of private companies, instead 
of competing with them, taxpayers can spend less must be and 
policymakers can adopt more accurate and timely data decisions. 
Let's make sure we use the best of what the private sector has 
to offer.
    Thank you. I look forward to answering your questions.
    [The prepared statement of Mr. Darr follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mrs. Blackburn. The gentleman yields back. I thank each of 
you for your testimony, and we will now begin the question-and-
answer portion of this hearing. And I yield myself 5 minutes 
for questions.
    Mr. Legg, I want to start with you. In your testimony, you 
noted that pursuant to Form 477, if even one home on a block 
has service then the entire block is considered served. And 
then you talk about some of the rural census blocks can be 
larger than the State of Connecticut, so this shows you what a 
flaw there is in the data collection.
    Why does this requirement exist, and how do we fix it? And 
how significant is the particular issue when it comes to 
comparing that to other flaws that are in the system? And each 
of you have mentioned different things that you have a flaw and 
the things we can change as we look at the mapping process.
    Mr. Legg. Certainly, Madam Chairman. Thank you for the 
question.
    It is certainly true that measuring broadband connectivity 
by census block is a major challenge because oftentimes 
broadband coverage that we are trying to help foster in rural 
areas is actually in the areas where the blocks are the 
largest.
    There are, in fact, 3,200 census blocks in the country that 
are larger than the entire District of Columbia. There are five 
in Alaska that are bigger than the State of Connecticut, the 
biggest one being about the size of the State of New Jersey.
    So the unit of measure being the census block is really the 
most granular unit of measure that is available to the FCC to 
collect data. But we believe that the SBI program actually 
allowed for more granular representations of coverage in rural 
areas.
    As I mentioned in my testimony, there were certainly issues 
with the SBI program, but granularity in rural census blocks 
greater than 2 square miles during the SBI program was measured 
at the road segment level of detail. And we think that that 
should at least be the minimum standard for census blocks that 
are larger than 2 square miles.
    Mrs. Blackburn. Mr. Darr, do you want to weigh in on this?
    Mr. Darr. There is no question that many of the rural 
census blocks are going to be problematic, to say the least, to 
try and cover. Looking at it differently within the rural areas 
than the urban areas should be considered.
    Mrs. Blackburn. OK. And, Mr. Brake, let me come to you now, 
because you looked at the definition of broadband and the 
various elements that are in there. And you talk and touch on 
speed a factor that we need to give great weight, but there are 
other factors such as latency and pricing, and Ms. Mattey 
touched on this just a little bit too. So are you suggesting 
that we take a more holistic look?
    Mr. Brake. Absolutely. I think a more holistic and 
pragmatic approach, depending on the particular policy 
objectives that you are trying to achieve, should be taken into 
account.
    Mrs. Blackburn. OK. So how would you prioritize that?
    Mr. Brake. I think speed remains the priority, but I worry 
that sometimes we can have something of a tunnel vision where 
we focus only on speed and don't take other characteristics 
into account. I would say speed and latency are probably the 
two most important.
    Mrs. Blackburn. OK. Ms. Mattey.
    Ms. Mattey. I also think the amount of usage that the 
consumer has at what price is very important. With the advent 
of unlimited wireless data plans, that has changed the dynamic 
in how people use their wireless phones, and I think it is 
important to keep in mind usage at what price.
    Mrs. Blackburn. OK. Mr. Darr.
    Mr. Darr. I would agree. The operators are certainly under 
significant price pressure right now as there has been a price 
war going on that has helped a lot of consumers but at the same 
time has also pulled away dollars necessary for additional 
infrastructure build.
    Mrs. Blackburn. And then how would you prioritize the 
factors in the definition?
    Mr. Darr. The areas with no service at all should certainly 
be looked at first. Understanding what level of service is 
feasible into these areas is also critical. In order for the 
American taxpayer to get the biggest bang for their buck, the 
more areas that can be covered, for the least number of 
dollars, to cover the most amount of people, and provide them 
with the speeds desired is going to be an important part of the 
analysis process moving forward.
    Mrs. Blackburn. Mr. Legg, I see you shaking your head. Go 
ahead. I have got a couple of seconds left.
    Mr. Legg. Yes, I agree completely with Mr. Darr. I think 
focusing--as my colleague here, Mr. Brake, mentioned--on speed 
and latency is very important. And obviously, broadband mapping 
is critical to defining areas in the country that need 
investment.
    So I think focusing on the areas where the greatest number 
of people can be served for the lowest possible cost should be 
priority, but we shouldn't forget that there are a lot of areas 
that are very remote in the United States where those people 
need access as well.
    Mrs. Blackburn. Thank you. My time has expired.
    Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Madam Chair. And I know that you had 
stated that you thought it would be inappropriate to have 
hearings on net neutrality while the FCC has a pending 
proceeding, and I just want to remind everyone that the 
subcommittee held three hearings before the FCC adopted its net 
neutrality protections in 2015. Two of those hearings were 
specifically about the FCC's pending proceeding, and one of 
those hearings was an FCC oversight hearing where Republicans 
specifically raised the net neutrality proceedings in 
statements and questions.
    Dr. Wack, as we are considering options for increasing 
broadband deployment, using direct and partial support payments 
as well as regulatory streamlining, you have come to represent 
a really interesting and promising approach using public/
private partnerships.
    For your broadband deployment in Westminster, you said that 
the major carriers just weren't interested in deploying 
sufficient service. What kind of service was available? What 
did you need? And ultimately, what are you building?
    Mr. Wack. Thank you, Congressman Doyle.
    The service available at the time when we were beginning to 
consider this project, which was in the 2010, 2011 timeframe, 
we had pretty fairly widespread 25 meg, down 5 meg up service 
through our incumbent cable provider. There was patchy DSL 
service and then satellite service out in the more rural areas. 
So the 25 meg service, even in 2010, 2011 was considered 
adequate coverage, and yet, our business community 
overwhelmingly said that this was insufficient for their needs 
for moving large files and was holding them back. They were 
suffocating because of inadequate access.
    So that is what started us down this road, and we didn't 
want to just meet current standards or even sort of exceed 
them. We wanted to leapfrog the whole process and build 
something that is basically future proof, which meant a fiber 
network throughout the whole community. And we figured we might 
as well just go large and build for a gigabit.
    I think the comments that you hear today about, oh, nobody 
needs a gigabit, there is certainly an element of truth to 
that, but that won't remain true forever. There is nothing that 
we use in technology that doesn't increase, whether it is 
process or speed, memory, bandwidth. So we know we are going to 
need a gigabit, and so we want to make sure Westminster has a 
gigabit when Westminster needs a gigabit.
    Mr. Doyle. I know that many states have restricted 
municipal networks. And if you had such a restriction in place, 
what would your community be left with in terms of service, and 
what options would you have had?
    Mr. Wack. We would be continuing to suffocate under the 
current or what was the current service at that time. But I 
have got to tell you, we would be manning the barricades and 
storming the State House, storming Congress, because my 
constituents were not going to settle for the inadequate 
service that we were getting.
    Mr. Doyle. As you should.
    Ms. Mattey, in your testimony, you talk about the process 
of updating the definition of broadband at FCC periodically. 
Tell us why that is necessary and what happens when we let 
these definitions languish.
    Ms. Mattey. Well, first of all, I think it is required by 
the statute. The statute says that universal service is an 
evolving concept, and therefore, it is important to reassess 
what we are aspiring for.
    If the definitions remain stagnant, you run the risk of 
locking in the rural areas of the country at a level that is 
not reasonably comparable to what is available in urban areas. 
We started at the FCC with the definition of 4/1. The FCC moved 
it to 10/1. And the fact that that happened in just 3 years and 
what is on the horizon makes it very clear to me that the 
definition needs to go higher in the future.
    Mr. Doyle. Very good.
    Ms. Mattey, do you think the current investment in the USF 
fund is sufficient to close the broadband gap? You know, some 
have said it would take an investment of $40 billion to $80 
billion to fully serve our country with high-speed internet.
    So if Congress acts on an infrastructure spending bill that 
includes broadband, it seems like tax incentives alone won't be 
sufficient to close the gap. What do you think about this?
    Ms. Mattey. I definitely think that the Universal Service 
Fund needs to be larger. The FCC set the budget in 2011, and it 
is time to reassess that budget.
    Mr. Doyle. Thank you very much.
    Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back at this time.
    Mr. Lance, 5 minutes.
    Mr. Lance. Thank you very much, Madam Chair.
    Mr. Brake, you have noted that Light Touch Regulation has 
allowed the U.S. digital ecosystem to flourish. Can you please 
discuss how government intervention has hurt the marketplace 
through heavy governmental regulation and government-owned 
competition to the private sector?
    Mr. Brake. Sure. I think the most explicit example of that 
would be the recent decision to classify broadband internet 
access service as a telecommunications service under Title II, 
Communications Act.
    Mr. Lance. After Title II, yes.
    Mr. Brake. Is that what you are getting at?
    Mr. Lance. Yes, it is. Yes, of course.
    Mr. Brake. Right. So I think Title II has likely seen a 
drag on investment. There are conflicting reports on exactly 
how those numbers shake out. But the real question is a 
counterfactual one, which is much more difficult to answer, 
right? Now, whether investment is up or down, what it would be 
other than Title II. And I think the evidence is there are good 
reasons to believe that investment would be higher if it wasn't 
for that reclassification. I also think the Title II in the 
particular net neutrality rules that were implemented as part 
of that reclassification unnecessarily constrain broadband 
access ability to evolve to provide new services over time. So 
I think returning to a Title I Light Touch approach is the 
right answer.
    Mr. Lance. Thank you. Would anyone else on the panel like 
to comment?
    Dr. Wack, you are a distinguished public servant. Mr. Brake 
has mentioned the private sector has an incentive for 
innovation efficiency. How do we also instill that in a 
governmental run provider?
    Mr. Wack. Thank you, Congressman Lance. I guess the first 
thing to clarify is that our project is not a government run 
network. We own the infrastructure, just like we own the roads. 
We don't dictate how the network is operated. We have set some 
minimum service levels and minimum customer service 
requirements, but we want to create a competitive open access 
market so that the market dictates how that innovation unfolds 
and what the service levels are and the price points.
    So we are in the process of doing that. I realize that is 
not the same as other municipal networks around the country, 
but that is the model we have chosen.
    Mr. Lance. And that was chosen by your local governmental 
body, is that how it worked, sir?
    Mr. Wack. That is correct. We went through an exhaustive 
research process, looked at other municipal networks around the 
country and around the world, compared pros and cons, assessed 
what we were capable of in terms of our local municipal 
resources, and frankly, the political environment. I live in a 
very conservative community, it is one of the most red counties 
in the State of Maryland.
    Mr. Lance. There are red counties in the State of Maryland?
    Mr. Wack. Oh. Yes, sir. Yes, sir.
    Mr. Lance. I like your tie.
    Mr. Wack. Thank you.
    Mr. Lance. I wish we in New Jersey had a similar tie.
    Mr. Wack. Not everybody can have a State of Maryland flag, 
sir. So, anyway, we knew that having a municipal ISP like some 
other communities have would be politically unacceptable in our 
community. So I think we found a model that, as I said in my 
notes, is applicable across the country in any community.
    Mr. Lance. Thank you. Mr. Brake, would you like to comment 
on that? I see you were interested.
    Mr. Brake. Yes. I think it is important to realize, even in 
these sort of dark fiber open access models, it fundamentally 
shifts the sort of nature of the investment, even the retail 
provider is looking at improving over time.
    It shifts from what economists call dynamic efficiencies, 
trying to find new ways to compete in the marketplace, offer 
new products, improve through R & D, and improve through 
technology. It shifts instead toward what economists call 
static efficiencies, right? So these are just simply things 
like price or quality of service. While those are important to 
improve, in a broadband market, I worry that if we move toward 
this dark fiber model, this municipal model over time, it zaps 
the incentive to invest in the long term.
    Mr. Lance. And you believe that it is more likely that 
there will be dynamic efficiencies if this is controlled by the 
private sector?
    Mr. Brake. Correct. Yes.
    Mr. Lance. Thank you very much. I yield back 32 seconds.
    Mrs. Blackburn. I thank the gentleman. We will take that 
time back. And, Mr. Loebsack, you are recognized for 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair. I have to apologize, 
I had to step out during a lot of the testimony and meet with 
constituents, so some of what I am going to ask may have 
already been answered, and if that is the case, if you don't 
mind repeating that, it would be wonderful. I appreciate that. 
It is sort of what happens on these committees sometimes, we 
have a lot of things we have to be doing at the same time.
    But as I mentioned in my opening statement, I often mention 
at these hearings, I travel to all my counties. I have 24 
counties. Chairman Walden likes to remind me that while I have 
a big district, it is not nearly as big as his, but it is a 
pretty big area. And I do consistently hear concerns about, 
obviously, the lack of access to good quality broadband in 
rural areas.
    Yet, interestingly, if you look at the claims out there, 
from whether it be the FCC or whatever, the claims having to do 
with the existing data, apparently most of Iowa, if not all of 
Iowa, is pretty much served, and we know that that is just not 
the case. And so I do have my own bill that I mentioned. But 
without getting into the public/private controversy and all the 
rest, because no matter who is going to provide the service, 
they are going to have to have good data in the first place to 
know where the service is and where it isn't.
    And so what I want to deal with is first order questions 
having to do with the data that are available in the very first 
instance. No matter whether it is a missed for a utility or 
private sector or whatever that is going to end up laying the 
fiber and doing what we need to do to make sure that everybody 
has broadband.
    And I just want to ask you, Dr. Wack, first have all, was 
the city of Westminster in the same situation like many 
communities in my district where they are theoretically served 
in the eyes of the FCC and service providers, but they are 
really not? And a lot of that has to do with the data issues. 
Is that the case?
    Mr. Wack. Yes, sir. According to existing standards at the 
time, we were adequately served both in terms of service level 
and numbers of providers. The reality was that in terms of 
number of providers, the DSL service that was available in our 
community was very patchy, as it is in most communities, 
limited by distance from the central office.
    So even in downtown Westminster there were areas where you 
could not get DSL service because of the proximity to the 
central office. And then in terms of the cable provider, the 
service level just wasn't adequate for what businesses needed 
today. And so, with all due respect to this data collection 
effort, it was irrelevant to us because functionally we were 
underserved. We were effectively underserved, even though 
technically we were adequately served.
    Mr. Loebsack. And I find when I am traveling throughout my 
district, even along Interstate 80, one would think, that I 
should be OK along Interstate 80, a major thoroughfare and all 
the rest through our state, it is just simply not the case. So 
we have to make sure that we are all covered. And that is 
Interstate 80. Then we got, not to mention, the rural areas out 
there, right with county roads and all the rest. There is just 
a lot of areas that are pretty much not served at all.
    I would like to ask Mr. Legg and Mr. Darr, can you speak to 
some of the challenges or deficiencies there currently are with 
the data collected by the FCC. And, again, if you already 
addressed those issues, I apologize, but I would like to hear 
from you.
    Mr. Legg. Sure. Congressman Loebsack, thanks for the 
question. The biggest challenge with regard to the Form 477 
process that the FCC administers right now is that the fact 
that the data is collected at the census block level of detail, 
which is fine in urban and perhaps even some suburban areas. 
But in rural areas like the areas that you represent in Iowa, 
census blocks are quite large.
    I mentioned earlier that there are more than 3200 census 
blocks in the country that are larger than the District of 
Columbia and several that are larger even than the State of 
Connecticut. If reporting is happening at the census block 
level of detail and even one household in the given census 
block is served, then that entire census block is considered as 
having service, and that is a problem.
    Mr. Loebsack. Thank you. Mr. Darr?
    Mr. Darr. Thank you. As was illustrated in one of the maps 
I showed earlier, there is no standard as to exactly what is 
defined as the level of service necessary in order to meet 
these requirements. The different operators have challenges 
that are both economic and technical, but largely economic, in 
order to be able to cover these areas.
    There are certainly concerns with how this data is being 
collected at the FCC, in part because of the length of time 
that it takes to move from the carrier reporting it to when it 
is actually in place. But the fact that there are no standards 
associated with it is of significant concern as well. You may 
very well be able to get a text message out at the very edge of 
that network, but it is not good enough for a voice call. It is 
certainly not good enough to be able to download a video.
    There are ways now, there are new technological 
capabilities today to understand more of what we call ground 
truth, which was on the last map that I had up on the screen 
earlier, that is collecting information directly from 
consumers, trying to utilize RF propagation maps to define 
exactly where you are going to get service or not get service 
is an inexact science.
    We have all been in the underground parking lot in a 
building that, according to the coverage map, shows service. We 
don't really expect to be able to get it there. And so these 
types of issues and concerns are part of the difficulty in 
collecting this. The information that we have in our data sets 
that the FCC has used for many years is based upon the 
marketing maps. There is, in some cases, better data from 
operators, and in other cases, not.
    There is a sixth slide. If I could ask Giulia to pull that 
one up, please, that shows the ways that we grade coverage 
information. And if we can see it on the screen here.
    We started out with what we used to call amoeba maps, they 
were just rough drawings of where the coverage was. Or they 
would just fill in their license area, and say, this is your 
rate area. But things have gotten better and better, as you can 
see.
    The multilevel RF is the highest that we consider very 
good. Not all carriers share this information publicly. We have 
some information from the operators at this level, and not from 
others. Where we have it, if they have asked us to keep it 
proprietary, we do. It is interesting Mr. Legg suggested a 
clearinghouse operation that would assist the Government in 
doing this. This is what we have done for over a quarter 
century. We are recognized as the clearinghouse by the wireless 
industry. And I think having something similar in place to take 
care of the other parts of broadband would be good as well.
    Mr. Loebsack. Thank you, Mr. Darr.
    Mrs. Blackburn. Great answers, and we like looking at your 
data. You got a good process. Mr. Loebsack, I will recoup that 
2 minutes at some point in time.
    OK. Mr. Shimkus, you are recognized.
    Mr. Shimkus. Thank you, Madam Chairman. Thanks for being 
here. Great testimony. Love to talk about technology, it just 
keeps moving faster and faster and there is just always a need 
for more.
    So I have 33 counties, so the folks from the rural areas 
are always going to talk about how we are left behind and rural 
areas have co-ops to make sure that we can have phone 
connectivity. We have power co-ops. That is just the way rural 
areas have been able to--much like the city, they are on--the 
public demanded it, they got together, they started making sure 
that they had services.
    This accuracy of information is really important. So I have 
got enough, the testimony, we went through it, understanding 
the 477 filing and the problems with that. But Ms. Mattey 
mentioned this challenge thing, that when someone says: It says 
I am covered, but we are not, we are going to challenge this 
census block? And then they may be able to get that revisited. 
Is that it?
    Ms. Mattey. That is correct. That is what we did while I 
was at the FCC implementing the Connect American Fund.
    Mr. Shimkus. Let me go to Mr. Legg, and actually, Mr. Darr. 
Because you don't talk about that process, you talk about there 
is other information available. So why doesn't that work?
    Mr. Legg. Congressman, I think as the Federal Government, 
the FCC, currently there are many agencies across the Federal 
Government that deal with broadband infrastructure spending, 
NTIA, the Rural Utility Service at USDA, as those agencies are 
making decisions about where to invest and support broadband 
infrastructure buildout, they need to know on the front end.
    Mr. Shimkus. There is a big lag in time just to go through 
the process of filing and doing an appeal?
    Mr. Legg. That is right.
    Mr. Shimkus. Mr. Darr?
    Mr. Darr. The speed at which this takes place is important 
as well.
    Mr. Shimkus. Right.
    Mr. Darr. Because as decisions are being made, you are also 
holding up the private sector in making decisions to make their 
own investments. So once the decision is made and the operators 
know what is going to be funded and what is not, then they know 
how to better direct the other funds that they have to 
continue.
    Mr. Shimkus. Let me go quickly, because I don't want to 
pull a Mr. Loebsack and go 15 minutes past my time.
    Mr. Loebsack. I didn't have the gavel.
    Mr. Shimkus. But if this is kind of a national incented 
money to help, shouldn't there be a national broadband standard 
as far as speed that is accepted and then can change as the 
time changes? We would accept that proposition, wouldn't we?
    Mr. Legg. Congressman, yes, I would agree with that. I 
think the need for speed is going to always continue to 
increase. Some school districts across the country are seeing 
30 to 60 percent year-over-year growth.
    Mr. Shimkus. Mr. Brake, you wanted to say something?
    Mr. Brake. Right. I would generally agree that we want to 
have sort of a national standard if we are looking at a 
nationwide infrastructure buildout. But I think the point that 
Ms. Mattey made earlier, to have that coordinated with the 
existing USF support, and make sure that you are not working in 
cross purposes is incredibly important.
    Mr. Shimkus. Yes. And we will have that USF debate, too, as 
far as what are we are incenting and are we transferring it to 
something which brings up the issue, I don't think I want to 
address, because the telecommunication companies are talking 
about the requirement to continue to pay money to keep up a 
copper wire system, right? Is that money well spent, Mr. Brake?
    Mr. Brake. I would argue, no. To the extent that that is 
preventing them from transitioning to more modern networks, 
toward fiber networks, that is an impediment that we should be 
working at getting away.
    Mr. Shimkus. Because the reality in the ground and in the 
world is that people are cutting their own copper wire--they 
are not using the traditional copper wire anymore.
    Mr. Brake. Right.
    Mr. Shimkus. Although we still by law and regulation 
require the companies to pay money to keep that up while they 
could be using that money to deal with fiberoptic technology.
    Mr. Brake. That is right. That is the gist of it. It is a 
big complex transition right to move wholesale from copper all 
the way to fiber. There are a number of legacy services that 
depends on copper networks, and so finding a way to make that 
transition is incredibly important, it is complicated. But to 
the extent that there are undue regulations that are preventing 
that from happening, that is a problem.
    Mr. Shimkus. Madam Chairman, I will yield back my time, but 
I think that is something we should be discussing also in this 
debate.
    Mrs. Blackburn. I agree. Good points. And let's see, Mr. 
McNerney, you are recognized for 5 minutes.
    Mr. McNerney. I thank the chair. I thank the witnesses. 
Even though I missed your testimony, I read it, and it is good 
to hear from you.
    Dr. Wack, a significant portion of my district is rural, so 
I understand some of the challenges that we have talked about. 
In your view, is it sufficient for rural areas to have 
broadband speeds 10-1, 10 download and 1 upload, or is that 
going to leave a lot of rural areas without the services they 
really need?
    Mr. Wack. 10-1 is inadequate for doing anything of use in 
the 21st century.
    Mr. McNerney. Thank you. Enough said. About the 5.3 million 
veterans we have in this country, many of them have that same 
10-1 access, is that going to give them enough power to 
function?
    Mr. Wack. No. It is not even close.
    Mr. McNerney. Thank you.
    Mr. Legg, I am going to kind of go over some territory we 
already trotted over, but I am looking for specific answer. In 
your testimony you mentioned that reliable broadband mapping is 
a matter of critical importance to residents, businesses, and 
communities, anchor institutions, and there is where broadband 
is lacking. Can you expand on that point a little bit, please?
    Mr. Legg. Yes, absolutely. It is as Dr. Wack said, it is 
hard to do anything in the 21st century with inadequate 
broadband. It is just as important as roads, and perhaps even 
more so. I work a great deal on school connectivity for our 
organization.
    School connectivity is largely lacking across the country. 
We are seeing that there are still many schools across the 
county that aren't on fiber, much less have the minimum 
standard of connectivity, which is regarded by the FCC at one 
gigabit per 1,000 student. As you can imagine, there are a lot 
of rural areas that can't reach anywhere near that speed. So it 
is critically important for the future of learning and many 
other services.
    Mr. McNerney. OK. Concerning the Form 477 reporting and the 
idea that the census blocks may just take out one person and 
use that as an example for the entire block. Is that more 
likely to result in underreporting or overreporting in terms of 
25 to 3, 25 upload and 3 download?
    Mr. Legg. Certainly that means that broadband services 
being significantly overreported in rural areas across the 
country.
    Mr. McNerney. So the 10 percent estimate by the FCC is 
probably a small number compared to the real number.
    Mr. Legg. If it is based on the Form 477 assessments, yes.
    Mr. McNerney. OK. Our estimates for the availability of 
baseline fixed broadband service in rural areas especially 
prone to being overstated? I am asking the same question over 
again.
    Mr. Legg. Yes. Yes, that is right.
    Mr. McNerney. Well, I understand that the data reported 
through Form 477 can be outdated quickly. Do you have any 
suggestions on how that can be remedied?
    Mr. Legg. Yes. During the SBI program years where we 
managed 13 different state and territorial mapping programs, we 
were effectively working with providers on a near realtime 
basis to update their information. We believe, as I suggest in 
my testimony, that a neutral third party clearinghouse, instead 
of updating data every 6 months to a year could be working in 
realtime with providers as known deployments are being made. 
And that is why establishing a relationship with the providers, 
that there is a back and forth between the two to know where 
new infrastructure is being built in realtime, that is 
incredibly important.
    Mr. McNerney. And you think that can be done?
    Mr. Legg. Yes.
    Mr. McNerney. Mr. Darr, do you have any comments on that?
    Mr. Darr. I do. We provide this capability today for the 
wireless segment of the industry and we have close working 
relationships with almost every operator in the country, 
including the big four national operators, and almost every one 
of the rural operators, we are very engaged with RWA, CTIA, 
CCA, et cetera, to make sure that those relationships are 
maintained.
    I do think that this can be done in away where the 
information can be collected more quickly, and that information 
can be provided to the Government in a way that allows them to 
make the best decision and direct the funds faster and more 
efficiently.
    Mr. McNerney. Whoever wants to answer this. Is there 
something that this panel could do--introduce legislation or 
create a statute--or is this a regulatory issue, to increase 
the frequency of reporting and accuracy of the 477?
    Mr. Darr. That is a good question, Congressman, I am not 
sure I know how to answer that. It may be both.
    Mr. Legg. I believe, as we mentioned in our testimony, we 
do believe that there is a solution to solving this challenge. 
Creating a neutral independent third party clearinghouse that 
is responsible for mapping and data collecting and validation 
and consumer reporting across all 56 state and territorial 
jurisdictions, that is viable and that is something that 
Congress could address.
    Mr. McNerney. Thank you. I yield back.
    Mrs. Blackburn. Mr. Latta, you are recognized 5 minutes.
    Mr. Latta. Thank you, Madam Chair. And thanks panel 
witnesses for being here. It is very, very informational and 
very, very important.
    Mr. Legg, I know we have been talking and you had a lot of 
questions today about this. But broadband support programs 
aimed to increase broadband coverage in rural America where 
agricultural production generates significant value to the 
national economy and also are essential to the revenue and jobs 
in the rural communities.
    In my area, I represent the largest farming and producing 
district in the State of Ohio, as well as having 60,000 
manufacturing jobs. But today with modern high position farming 
operations, which requires the high speed broadband to support 
advanced operations and technologies that significantly 
increase crop years or decrease costs and improve the 
environment. A program that only seeks to measure broadband 
coverage based on population centers, households, and road 
miles, were overlooked coverage gaps in the agricultural 
communities.
    Will you speak to the importance of ensuring that broadband 
mapping and coverage measurements are updated to adequately 
identify underserved and unserved crop land in other 
agricultural areas for the purposes of high speed broadband 
deployment?
    Mr. Legg. Certainly. Congressman Latta, thank you for the 
question. Rural areas across the country are the next explosion 
in terms of innovation of technology, is going to happen 
actually in rural America, we believe. And an example is the 
one that you cited, how farming in the United States is 
changing rapidly. And the only way that it can continue to 
change rapidly is for adequate infrastructure in those rural 
areas to exist.
    And so, getting the mapping right is incredibly important 
for rural areas. That is why we have such a concern about 
collecting data at the census block level of detail because 
those are the areas that area most overrepresented in terms of 
current data collection processes, and yet those are the areas 
that we need the try to fix. Those are where the broadband 
coverage gaps exist.
    Mr. Latta. Well, and again, maybe you can go into a little 
more detail, how do we fix it and make sure we got it mapped 
correctly?
    Mr. Legg. Well, again, we believe that there is a viable 
path forward for creating a neutral, independent, non-
government clearinghouse for broadband data, where there is a 
responsibility between the providers and this clearinghouse to 
collect data in real time, to map it, and to put it out there 
for public consumption and feedback, and then to do validation 
and auditing of that data to make sure that it is as accurate 
as possible.
    This is effectually how we were so successful during the 
SBI mapping years, as we played that clearinghouse role on 
behalf of the 13 different states and territories.
    Mr. Latta. Thank you. Mr. Darr, it is well-known that the 
national demand for wireless services is growing rapidly as the 
usage of innovation wireless applications of the internet of 
things proliferates, and we know that from specifics right now, 
by the year 2025 there could be about 50 billion interconnected 
devices by that time.
    Essential health applications, state-of-the-art 
agricultural tools, educational services, business operations 
all employ wireless methods to improve our daily lives. And, 
again, in rural America wireless is often the only reasonable 
economic means to providing high speed broadband coverage.
    In what ways can Congress or the FCC improve data 
collection for wireless services to identify areas where access 
to high speed mobile broadband is lacking or nonexistent?
    Mr. Darr. I think the first thing to do is consider not 
only population covered, but also area covered, and 
specifically, agricultural farmed areas covered. Your point 
about IoT is absolutely dead on. We have got the technology in 
the field now, that it is looking at moisture content, yield, 
and a number of hours of sunlight per day. This could all help 
us dramatically increase the efficiency of our crop land.
    So as we are looking at the mapping aspect of this, taking 
into consideration not only where the people are that need 
access to broadband for education, entertainment, et cetera, 
but also from the standpoint of what level of service actually 
do these devices in the field need?
    Where some devices are going to be very simple, they are 
simply going to spit a little bit of information out every hour 
every day, and run on batteries, and they have a limited life 
span. But you have opportunities for people in the field that 
may be driving a large piece of farming equipment to actually 
gain training and expertise and be able to communicate back and 
forth with the manufacturer of the vehicle.
    And of course, the vehicle manufacturers are collecting 
telematics information off of these vehicles as well. It is 
important to make sure that they are maintained properly, 
understand how many hours they have been running, and also 
gather the information on the yield off of the crop land.
    So this is a critical part of this moving forward. There 
are going to be more devices out there that are communicating 
with the networks than there are people in the very, very 
future.
    Mr. Latta. Well Thank you very much. And, Madam Chair, my 
time has expired.
    Mrs. Blackburn. I thank the gentleman. Ms. Eshoo, you are 
recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman. And thank you to 
all the witnesses. First, Madam Chairwoman, you said something 
at the beginning of the hearing, and I want to clear it up.
    In terms of outreach from your office on the issue of 
privacy, there was an e-mail sent to our legislative director 
asking for cosponsorship, but it wasn't a form of invitation to 
have a round table discussion about it, et cetera, et cetera. I 
would welcome that. You know that all of us on this side of the 
aisle were appalled that the Congress, like a bolt of 
lightning, eliminated all privacy protections on the internet.
    So I am not so sure about everything that you have in your 
bill. I would be happy to sit down at a round table to discuss 
it. But the way you characterized a refusal of participation, 
it wasn't an invitation to sit down and talk about it. It was 
just, ``Legislative director, do you want to be a cosponsor or 
not?'' So I just wanted to clear that up.
    I would like to go to Mr. Brake first, given the question 
that was posed by Congressman Lance to you about Title II 
investment. You know, of course, that CEOs of publicly held 
companies are obligated under the law to put forward 
information that is factual and accurate relative to their 
forecast about investment.
    Can you name any CEO of a major company in the country that 
stated to their shareholders that there was--they anticipated 
lack of investment or smaller investments because of Title II?
    Mr. Brake. No, not off the top of my head.
    Ms. Eshoo. No, not just off the top of your head.
    Mr. Brake. No, I can't.
    Ms. Eshoo. That Title II has chilled investment, then give 
me the example of a publicly held company and their 
representative, their CEO, stating to their shareholders that 
Title II is responsible for a chilling investment of their 
company.
    Mr. Brake. Part of my concern is that----
    Ms. Eshoo. No. Not your concern. Answer my question. You 
stated something earlier, I am asking you to back it up.
    Mr. Brake. I am happy to submit for the record a piece we 
have written on this analysis.
    Ms. Eshoo. No, that is not what I am asking you for.
    Mr. Brake. No.
    Ms. Eshoo. I don't think you have an answer. I just don't 
think you have an answer. You can't give me the name of one CEO 
or one company that has stated that to their shareholders.
    Mr. Brake. That is correct. I am happy to discuss the issue 
further.
    Ms. Eshoo. No, we don't have to. You finally gave me the 
answer, which I thought would be the case anyway. People come 
in and make all these wild statements and they don't have 
anything to back them up, and that is point that I wanted to 
make.
    I would like to go to Dr. Wack. I served in local 
government, and I have a real reverence for it, so bravo to you 
and what you have accomplished.
    We have a real problem in the country in that we are 
getting close to half of the states in our country now have put 
laws in place preventing or restricting local communities from 
building out their own networks, which I think helps 
constituents get the better broadband service that you came 
here and testified about, and it really concerns me. I think 
that we should be paying more attention to that.
    In your experience in Westminster, did you encounter any 
kind of resistance from incumbent ISPs when you went down the 
path of building your own fiber networks?
    Mr. Wack. Thank you, Congresswoman. We did not. Our 
networks, for whatever reason, was either too small or they 
just didn't believe we were going to do or it would work or 
something.
    Ms. Eshoo. What is the population?
    Mr. Wack. Eighteen thousand inside the city limits and then 
38,000 in the greater Westminster area. And so we have been 
ignored for the most part. I suspect that is probably not going 
to last very much longer.
    Ms. Eshoo. I would like to go to, is it Mr. Darr that spoke 
about--no I don't think it was Mr. Darr, I think it was Mr. 
Legg--an independent clearinghouse. What would the cost of that 
be?
    Mr. Legg. That is a good question, Congresswoman. I don't 
know the answer to that question off the top of my head, but 
that is certainly something we could calculate.
    Ms. Eshoo. Good. Thank you. My time is expired. I have some 
more questions for the other witnesses, but I will submit them 
in writing. Thank you.
    Mrs. Blackburn. The gentlelady yields back. Mr. Guthrie, 
you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairwoman. I appreciate it 
very much. I appreciate the opportunity to be here. Mr. Legg 
thanks for coming up from home. I appreciate you being here.
    I remember when your organization first came to pass. 
President Ransdell of Western Kentucky University convened. I 
was in the state legislature at the time. Some of us together 
with professors like Linda Johnson Vitale, and we were going to 
go figure out how to do broadband throughout the Commonwealth, 
I think we then became Connected Kentucky and then Connected 
Nation. And I appreciate all the hard work and the things and 
the difference that you guys have made.
    But we just want to talk about something. The other day we 
had somebody call our office who lives about a 20 minute drive 
from Bowling Green. So I explained to the people who don't 
understand the Chamber of Commerce picture of Bowling Green, is 
one of the fastest growing cities in Kentucky, an hour from 
Nashville. A lot of the development going forward. It is like 
Spartanburg, South Carolina, a new south growing town, not a 
rural community, at about 165,000 in the immediate area and 
serves about 250,000.
    We got a phone call for someone that said--a university 
there, and all the great things, about 20 minutes away, and 
say, they don't have access to broadband. And you know my 
district, if you were three or four counties away, it is 
extremely rural, it is as rural as probably anywhere in the 
country.
    But Bowling Green is really not that close. Is that a 
matter of mapping? Is that a census track? I know you talked 
about that quite a bit. And just where those holes are within 
our community, which as you get outside of our immediate area 
it gets even bigger?
    Mr. Legg. Absolutely. Congressman Guthrie, it is good to 
see you again, and thank you for your question.
    Yes, I believe that it is an issue of inaccurate mapping. I 
don't know exactly where the household or business is that you 
are referring to, but I can imagine, knowing the Bowling Green 
area and that part of Kentucky north of Nashville, that there 
are census blocks that are considered as having service, 
according to the FCC's Form 477 data, where service doesn't 
actually exist to every household within that block.
    And that points to the issue that I was referring to 
earlier, that the size of the block and the way the information 
is reported and collected, naturally lends itself to 
overstatement in rural areas.
    And so I would guess that the Federal Government views that 
area as served, when in fact it is not.
    Mr. Guthrie. I think it is an entire neighborhood. So you 
have talked about in your testimony earlier, I believe, the 
need to send deployment network engineers. So how can you do 
that in these kinds of communities within a reasonable amount 
of time, and quite honestly, with a reasonable amount of 
resources?
    Mr. Legg. Sure. We believe as part of any clearinghouse 
role that there should be a validation and audit process, and 
that those areas where consumers provide feedback to the 
clearinghouse, that, hey, this mapping information doesn't 
quite look correct, we need you to check it out. Then there 
should be a process for actually deploying field engineers on 
the ground to check whether the data represented on the map is 
correct. And this is a constant or a continual refinement 
process that would need to happen over time.
    No map is going to be absolutely, 100 percent accurate from 
day one, but there should be a validation audit and refinement 
process involved. And we believe, based on our experience under 
the SBI program, where we did deploy field engineers to check 
provider submitted data, that that process is viable if the 
country is divided up into regions of jurisdiction for the 
purposes of mapping data collection and audit.
    Mr. Guthrie. Thank you. And, Mr. Darr, I know you 
specialize in wireless. Can you explain briefly how technology 
itself has been able to broaden the coverage amount? Just the 
wireless. Not just fiber broadband, but wireless and all the 
others been able to expand the map?
    Mr. Darr. If you look back at the beginnings of the 
industry we all just had car phones early on, we didn't have 
these wonderful little computers in our pockets.
    Mr. Guthrie. Bag phones.
    Mr. Darr. Bag phones. Eventually portables. And the systems 
were engineered for us to use the phones in our vehicles or 
outside. I think it comes from mapping overall, has to do with 
the fact that people are now using these devices in their 
homes, in their offices, in the library, in this building here.
    There is an expectation that these devices are going to 
work inside. There are new technologies that are coming along 
today that have been out for a number of years, distributed 
antenna systems, small cells, picocells that are even suitable 
for residential homes, that can assist boosting that signal 
indoors. And that is going to be a critical part of the mixture 
going forward.
    It can play a role within the rural areas as well. The maps 
show what you should expect outside, the type of construction 
on the structure is going to have a significant impact on 
whether or not the signal can penetrate.
    Mr. Guthrie. Thanks. My time has expired and I yield back. 
I appreciate it. Appreciate it.
    Mrs. Blackburn. Mr. Pallone for 5 minutes.
    Mr. Pallone. I am sorry. Thank you. OK. The Democratic 
members of the Energy and Commerce Committee recently 
introduced the Leading Infrastructure for Tomorrow's America 
Act for the LIFT America Act, I mentioned it in my opening. And 
that bill focuses on areas within the committee's jurisdiction 
where we can work on solving our country's infrastructure 
problems.
    Part of the LIFT America Act includes $40 billion for 
broadband deployment, and recent reports suggest that is how 
much it will cost to build out to 98 percent of the country. 
And as part of our initial draft we used a competitive bidding 
system to award this $40 billion.
    So I wanted to ask initially, Mr. Brake, do you think this 
is the right mechanism to disburse funding for broadband 
deployment?
    Mr. Brake. Thank you, Representative Pallone. The devil is 
always in the details, but absolutely, the general framework 
and the competitive bidding mechanism laid out in the LIFT 
America Act is the right place to start, yes.
    Mr. Pallone. OK. Thanks. Now, of course, many here in 
Washington are talking about using tax cuts as a way to improve 
broadband deployment. So I wanted to ask you, do you think 
using tax cuts or certainly using tax cuts alone in lieu of 
direct spending is sufficient to bridge the urban/rural divide?
    Mr. Brake. I would say no. I think the tax incentives as 
well as looking at ways in which localities can reduce barriers 
or in upgrading existing networks that are important for steps, 
but alone they are not sufficient, we should be looking at 
direct grant and Federal spending to accelerate deployment.
    Mr. Pallone. All right. Thank you.
    I wanted to now move to Dr. Wack. Earlier this year I had 
the opportunity to speak to small businesses in Asbury Park, 
which is a community in my district, about how a free and open 
internet can be a boost to the local economy and create jobs, 
which it certainly has in Asbury Park.
    So, Dr. Wack, has the deployment of broadband with open 
access have similar effect on the economy in Westminster in 
terms of boosting the local economy and creating jobs?
    Mr. Wack. Thank you, Congressman Pallone. I would love to 
tell you a big story today that that is exactly the case, but 
it is too early yet. Our network has only really been 
operational for less than 2 years, and we are only about 40 
percent of the way through our construction. However, there are 
anecdotal instances where businesses have either hired 
additional staff or expanded their capabilities because of the 
gigabit service that they now have access to at very affordable 
prices.
    We see early signs of this, but I can't really tell you 
definitively that the economic development question has been 
answered in Westminster because of our broadband project, but 
stay tuned.
    Mr. Pallone. OK. Now, what about your model. Do you think 
the model you used to deploy broadband could work in other 
communities?
    Mr. Wack. I do. I do.
    Mr. Pallone. OK. Then I wanted to ask you a little bit 
about the data. We have heard a general consensus on this 
committee that the data the FCC uses to determine broadband 
deployment is flawed, and I am concerned that the FCC is 
nonetheless basing many of its current policy decisions on this 
flawed data.
    So, Dr. Wack, in your experience in Westminster, do you 
think this data is a reliable source for policymaking?
    Mr. Wack. Short answer, no. I think not only is the data 
possibly corrupt, but the underlying premise of the data 
collection exercise is probably off as well. What the data 
collection exercise is really doing is ratifying the status quo 
of vertically integrated incumbent monopolies.
    There are other models that can work, which make the data 
collection exercise irrelevant. So it is a policy question for 
you all, but I don't think, as we demonstrated in Westminster, 
it is irrelevant for us. We are looking to the future, and so 
current service levels are irrelevant to our policy decisions. 
We are looking 20 years to the future.
    Mr. Pallone. Well I was going to ask the next question, but 
I think you have already answered it.
    But let me just say, how helpful do you think it would be 
for small communities like yours or mine in New Jersey if the 
FCC spent more time figuring out how to correct this data 
before rushing into larger projects.
    Mr. Wack. Again, I think it is going to be irrelevant. It 
is like assessing your future water capacity based on drinking 
straws or your road capacity based on bicycles. That may work 
today, but in 10, 15, 20 years, all those numbers are going to 
be irrelevant. And these are long term investments. Fiber 
projects are or expensive, they are difficult, they take a long 
time. So this is a long game here. And talking about current 
service levels, it is a waste of time. Sorry.
    Mr. Pallone. That is all right. You don't have to be sorry. 
That is my question. Thank you for answering it. Thank you, 
Madam Chair.
    Mrs. Blackburn. The gentleman yields back. Mr. Bilirakis, 
you are recognized.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it so 
much, and I appreciate the panel being here. Thank you for your 
testimony. My first question, it is clear that we must have the 
most up-to-date and complete information to avoid wasting 
taxpayer dollars. I am particularly interested in ensuring that 
funds are distributed efficiently and effectively to Americans 
with no broadband access.
    Each of you identified the need for continually updated 
maps to show where broadband has been deployed. Considering the 
rapid changes in broadband data, it may be also advisable to 
include information where there has been a commitment under a 
federal or state subsidy program to deploy broadband to an 
area.
    Mr. Darr and Mr. Brake, what are your thoughts on including 
committed broadband subsidies in future maps as opposed to 
ongoing deployment efforts? We will start with Mr. Darr, 
please.
    Mr. Darr. The challenge with the mapping, if I could get 
you to please repeat the last two sentences.
    Mr. Bilirakis. Yes, let me go on to do that. What are your 
thoughts on including committed broadband subsidies in future 
maps as opposed to just ongoing deployment efforts?
    Mr. Darr. If I understand the question correctly, yes. 
Serving these areas is not just a matter of getting over an 
initial hump. Many of these areas are going to continue to be 
more expensive to serve than the revenues that can be generated 
from them.
    You have got to have continuous mapping going on and 
understanding how the landscape overall is changing because the 
needs, as has been discussed on the panel already, what we may 
need 10 years from now could be very, very different. The 
opportunity to present this type of service to the rural areas, 
what meets their needs today may not meet their needs in 2, 3, 
5 years.
    Mr. Bilirakis. OK. Mr. Brake, do you want to comment on 
that?
    Mr. Brake. Right. There has been a lot of talk about the 
challenges with 477 process. I think, again, as I stated in my 
testimony, if you work towards a more bottom up distribution 
method, as well as incorporating a more market-based approach 
as was outlined with the challenge process. There are ways in 
which we can improve this data collection process.
    We are already collecting data twice a year, right? So the 
need to move to a wholesale different system in order to find 
more accurate data you can either go to a more grandular 477 
reporting or there are other ways in which we can really solve 
this information problem, rather than throwing hundreds of 
millions of dollars at a one-off mapping project.
    Mr. Bilirakis. OK. Let me get on to the next question. Mr. 
Brake, you discussed the definition of broadband and various 
elements of how it is defined. If I understand your testimony 
correctly, speed is a factor we should give great weight, but 
other factors as well, such as latency and pricing are also 
relevant.
    Are you suggesting that we take a holistic approach to 
defining broadband? And how should we prioritize factors other 
than speed?
    Mr. Brake. I think that is right. So obviously the speed is 
the predominant metric by which we define different service 
levels of broadband and how we define underserved areas, right? 
But my primary concern is much more long term. Right? I worry 
that broadband networks will continue to evolve to support 
different services over a multi-decade timeframe.
    So if in legislation we lock in a particular very narrow 
understanding of what broadband is, it doesn't give room for 
these programs to change over time. And so, absolutely, speed 
is most important. But I think we have to be holistic and 
pragmatic, and here the FCC, again, has lead the way, at least 
within the USF program.
    Mr. Bilirakis. Very good. Again, for you, Mr. Brake, you 
referenced the FCC's 2016 broadband progress report, and 
statements by then Chairman Wheeler about the marked reduction 
of unserved Americans over the course of the year. Do you or 
does anyone else on the panel know how much of that progress 
was actually connected to nonserved areas, meaning zero 
coverage?
    And how much was simply bumping up speeds of those who 
already had the 4-1 or 10-1 download or upload speeds? Why 
don't you comment on that?
    Mr. Brake. I am not sure I know the exact answer to your 
question. So to be clear, the definition for the purposes of 
the broadband progress report is different from the definition 
for the purpose of Universal Service Funding. So this 
definition of Advanced Telecommunications Service is 25 
megabits per second, I have criticized that decision under 
former Chairman Wheeler, as being seemingly designed to paint a 
particular picture of competition choosing the 25 megabits per 
second rather than, say, a 20 megabits per second standard, 
which would paint a much different picture.
    Mr. Bilirakis. Thank you very much. Madam Chair, I am over. 
If anyone would like to respond in writing to that particular 
question, we would welcome that. Thank you very much. I yield 
back.
    Mrs. Blackburn. The gentleman yields back. Mr. Welch for 5 
minutes.
    Mr. Welch. I thank Madam Chair for having a hearing and 
Ranking Member Mr. Doyle. And I thank the panel. I just want to 
make a few comments.
    Everybody has agreed that this challenge of getting rural 
broadband is absolutely essential to tackle. Seventy of us 
wrote to President Trump, and we heard from Secretary Ross who 
said that broadband is an essential part of our nation's 
infrastructure and vital component of economic policy.
    In February we met with Chairman Pai and we urged him to 
have a targeted goal of what successful broadband deployment 
would look like. Chairman Pai came to the rural telecom working 
group and said that this was going to be a priority.
    There is a number of bills that have been introduced that 
would start to address the challenge, some of them bipartisan, 
and the frustration I am having, quite frankly, is we haven't 
had a markup. It is 6 months into this, there is a consensus on 
what the challenge is, because it affects all of our districts, 
and even folks from really urban districts have rural 
components that need this help.
    In the broadband report of 2016 from FCC talked about what 
that divide is, 39 percent of rural Americans lack access to 
advanced broadband.
    In Vermont over a quarter of our population lacks access to 
advanced broadband, and it is a brutal problem for us. Rural 
America is getting left behind. So this is really a plea to our 
committee, Madam Chair, for all of us to start having markups 
and doing the tough work of having legislation that can 
actually concretely move us ahead.
    We have got to, one, define what broadband deployment 
success in rural America is. We are getting some information on 
that now. Second, we are going to have to make some decisions 
about what is necessary to reach the goal. Does it mean public 
investment? That is a tough environment around here. But these 
broadband infrastructure deployments don't build themselves, 
they take money, and maybe it is a combination of direct 
investment in perhaps some loans. But that is a bottom line 
question, that unless we are willing to address, we are not 
going to be able to have a realistic plan to move ahead.
    So this is just, from a representative who serves a rural 
district, a plea that we start having markups on some of the 
bills that are before us.
    I will just ask a few questions because I have taken my 
time with this statement. But, Mr. Brake, if you were to 
recommend two things to start accelerating the deployment of 
broadband into rural areas, what would they be?
    Mr. Brake. Well, I do think the FCC is taking a good start 
at evaluating potential legacy regulation developing model code 
that can help reduce the barriers to investment. So that is one 
area to start. But I do think that, at the end of the day, if 
we really want to see a real acceleration in deployment, a 
greater investment at the Federal level is required.
    Mr. Welch. Ms. Mattey, do you have any comments?
    Ms. Mattey. Yes, two things. You need money and you need 
more money. And you have to decide to spend it.
    Mr. Welch. If we have money and more money, how do we have 
confidence that it will be wisely deployed?
    Ms. Mattey. Well, as I said in my opening remarks, I think 
it is very important if the committee decides to have money 
disbursed by an entity other than the FCC, that it be carefully 
coordinated with the FCC, to ensure that different Federal 
programs are working in harmony.
    Mr. Welch. Dr. Wack.
    Mr. Wack. Yes, sir.
    Mr. Welch. Yes. Same thing. Same question.
    Mr. Wack. I would say I am biased. I would say, give it to 
the municipalities with lots of strings attached. Require 
certain things, open access, certain project management 
oversight. But local problems are best solved locally.
    Mr. Welch. What about rural areas?
    Mr. Wack. Rural areas, I think there are some great models 
on the ground today. I would suggest you look at RS Fiber in 
Minnesota, it is a cooperative venture between a couple dozen 
municipalities and cooperatives rural Minnesota that are 
solving their local access and broadband problems through a 
public private partnership.
    Mr. Welch. Thank you. I yield back.
    Mrs. Blackburn. All right. Mr. Johnson, you are recognized 
for 5 minutes.
    Mr. Johnson. Thank you, Madam Chairman. And, again, I thank 
the panelists for being here today, a very, very important 
topic.
    Mr. Brake, you noted in your testimony that of the 6 
percent of Americans that lack access to 10 megabits per 
second, close to a quarter of that number come from rural 
areas. And I can tell you, from personal experience, that that 
number is probably a lot higher in Appalachia, in eastern and 
southeastern Ohio along the Ohio River.
    How is it that we keep missing large swaths of our nation 
in this otherwise well-intentioned effort to advance broadband 
access?
    Mr. Brake. It is a very good question. I think it 
legitimately is a very hard challenge to get broadband into 
these very rural areas. When the homes are so widely dispersed, 
the revenue base is very wide and the cost per home is much 
higher. It is a real economic challenge.
    If we do not define the goals very specifically in 
geography, I worry that sometimes money that is disbursed ends 
up inevitably pooling in the areas where the opportunity to see 
revenue return is greatest. I think this is more a concern when 
you are talking about broadband or loans rather than grants.
    So, I mean, it is just a continuing challenge. But, as I 
said, the potential infrastructure package is a real 
opportunity to take another crack at it.
    Mr. Johnson. Thank you. Ms. Mattey, do I have that right? 
Am I pronouncing that right?
    Ms. Mattey. Yes.
    Mr. Johnson. In your opinion, how has the accuracy of our 
broadband maps improved since the responsibility for mapping 
shifted from NTIA to the FCC?
    Ms. Mattey. That is a complicated question. I think that 
the FCC has been working hard and has the advantage of 
requiring the information to be provided. But I have to be 
perfectly candid, I am aware of inaccuracies in the 
information. I am aware that some entities have made mistakes. 
I have heard that there are concerns that some overreport. I 
think, and I actually agree with several of the panelists today 
that have talked about the importance of validation and even 
auditing the data to ensure that the data are accurate.
    Data collection companies are required to provide the 
information, but I will be candid and say, they don't 
necessarily have the strongest incentive to make sure that they 
are taking good care in submitting that information, and that 
is a problem.
    Mr. Johnson. OK. All right. We will continue with you, Ms. 
Mattey. In rural areas, how significant is it that a rural 
census block is considered served as long as part of the block 
is served. Isn't a census block based approach to broadband 
mapping very grandular?
    Ms. Mattey. The issue, obviously, is if you require 
something more detailed than a census block, that imposes a 
greater burden on the parties that are submitting the 
information. Whether they are submitting it to the government 
or an independent clearinghouse or a private sector entity that 
is collecting the information, either way, that is burdensome.
    A different approach is to just shift the presumption 
rather than saying you are going to deem the block served. If 
there is one location you can say the block is unserved unless 
all locations are served. That is a simple fix.
    Mr. Johnson. Yes. That strikes me as problematic, though, 
because aren't there just a few homes in those census blocks? 
That is part and parcel to the question that I asked Mr. Brake 
earlier, when you are working on simply a census block, you 
miss folks.
    Ms. Mattey. Well, that is the issue. It is just a question 
of which way. Do you want to presume something is served or 
unserved, and obviously, the issue is to make sure that you 
aren't declaring a block unserved, and then having a situation 
where you potentially are funding somebody to compete against 
another provider that serves a corner of the block.
    I have seen that in rural areas where, in the course of the 
challenge process, folks submitted maps, and you could see that 
there was a cable plant that was crossing perhaps a corner of a 
census block, but not touching all of the homes within. That is 
the policy dilemma, which way do you push the lever.
    Mr. Johnson. And I think you are highlighting the problem 
and making the case about why it is so important that these 
maps be accurate, because that is one of the reasons why we 
continue to miss swaths of rural America is because of the way 
we are mapping it out and the detail we are going down to. OK.
    Madam Chair, I yield back.
    Mrs. Blackburn. Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you very much, Madam Chair.
    And I want to thank the panelists for being here today.
    I think we all agree that good broadband data is essential 
to determining the public policies that we need to help 
facilitate broadband buildout. Now, I represent the city of 
Sacramento, the state capital of California. But I also 
believe, because we are the hub of the region, that it is 
really important to relate to the rural areas. And as Mr. 
Johnson and Mr. Loebsack and others, Mr. Welch will attest, I 
do attend the rural-urban kind of coalition because I believe 
we need to work together.
    Now, I believe that, for a region to succeed, you really 
have to look at both the urban and rural areas being unserved 
and underserved. And there are areas outside of my district 
that I work with really well, and there are very successful 
farming operations that I believe will be going on the longest 
time. There are other areas close to me that are farming now, 
but I can see the changeover to development and housing. And 
the region that I represent, the city and the suburbs, there 
are areas in Sacramento which were successful suburbs like in 
the 1960s and 1970s and no longer are that successful. And we 
see young people there not being able to have broadband to 
access their homework and all that.
    So I am looking at this thinking that, for economic 
benefits, looking at urban and rural together, because, quite 
frankly, what is happening now is we are having sort of a 
leapfrog type of situation where the developers are doing 
something in the rural areas, and a suburban area that used to 
be successful no longer is.
    And I am really wondering what we can do to tackle this. Is 
there different data we need to address that type of situation? 
We have a city area, which we are now getting a partnership 
with Verizon there for 5G. But then we have a suburban area, 
and then we also have the area that is developing from rural to 
suburban now.
    I would think that there could be more harmonizing there. 
And I don't know whether the data even looks at something like 
that because you are looking, I think, Ms. Mattey said, we need 
to have more dynamic data. So I would like some comments on 
that, Ms. Mattey.
    Ms. Mattey. Well, obviously, there are multiple ways one 
can try to improve the quality of the data. One of the 
questions is, whether the government does it or the private 
sector does it, who is going to pay? Whoever is doing the work.
    Ms. Matsui. It is always that. Right.
    Ms. Mattey. Yes.
    Ms. Matsui. Can I just say this? Our subcommittee has 
discussed legislative proposals to create an inventory of 
Federal infrastructure and property which could be used for 
broadband. Local and municipal governments would be permitted 
to add their existing facilities to the inventory so they might 
be better utilized by broadband providers.
    I am also looking at utilities and as we build transit, 
laying fiber and all that. And is there this type of 
coordination of data sharing now between the Federal, state, 
local governments? And have we also invited some of the 
utilities and transit people to be a part of this? Anyone?
    Mr. Legg. Congresswoman Matsui, I think you are 
highlighting a very important issue that access to conduit, 
access to pole attachments, access to public rights-of-way, 
permitting through Federal lands, BLM, forestry, all of that, 
all of those are challenges to broadband deployment. Frankly, 
there is quite poor coordination on all of the things that I 
just mentioned, and there is much room for improvement.
    Ms. Matsui. So that would mean that you would have another 
type of cooperation agreement, in a sense, other than we are 
talking about today?
    Mr. Legg. That is right. I think so. I think the 
participation of state, Federal, and local entities in a common 
framework that would allow for the sharing of information on 
how to get access to those things is very, very important.
    Ms. Matsui. Well, I would think that would benefit both 
rural and urban areas.
    Mr. Darr. Yes, absolutely. One of the significant hurdles 
right now within the urban areas particularly has to do with 
the need to streamline zoning and permitting for small mobile 
and Wi-Fi antennas. And this is going to impact the rural areas 
as well.
    I was having a conversation with an operator last week who 
has a lot of coverage in rural Mississippi, and they are using 
small cells on a telephone pole that are the size of Coca-Cola 
cans. And as long as you can get fiber to that point, then you 
can provide very high-speed directed service to an area that is 
relatively nearby. You don't always have to have the 200-foot 
tower.
    Ms. Matsui. Sure.
    Mr. Darr. But it is also important to understand that that 
fiber has to be there. If you don't have the fiber there, it is 
extraordinarily difficult to provide a high-speed signal.
    Ms. Matsui. Thank you.
    I have been urged to wind up here. So thank you very much, 
and I will submit the rest of my questions.
    Mrs. Blackburn. The gentlelady yields back.
    Ms. Matsui. I yield back.
    Mrs. Blackburn. Ms. Walters, you are recognized for 5 
minutes.
    Mrs. Walters. Thank you.
    I would like to thank the chair for holding this hearing 
this morning and for our witnesses for appearing.
    Unfortunately, as we have been discussing, there are 
significant portions of this country that don't have access to 
broadband, which limits economic potential but, far more 
troubling, increases the digital divide. And in order to get 
there, it is clear that we need to find a way to properly and 
appropriately identify the areas that need coverage, and that 
starts with accurate and up-to-date data. That being said, as 
we look to improve this data, we must ensure that taxpayer 
dollars are spent wisely and efficiently.
    Mr. Brake, you mentioned in your testimony that Federal 
support dollars should be given first to areas that are truly 
unserved. You state that priority should be given to these 
communities until the cost of connecting each additional 
premises becomes untenable. What cost should policymakers 
consider untenable?
    Mr. Brake. I am not sure I can give you an exact number. I 
worry that that is, to some extent, a political question, what 
amount of money we are willing to spend to advance truly 
universal coverage. The real challenge is, as you approach the 
very last few percent, the cost of connecting each additional 
user really takes off like a hockey stick. And so I would 
assume that we have to draw the line at the last 2, last 1 
percent. And at that point, it becomes reasonable to be looking 
at other technologies, such as satellite.
    Mrs. Walters. So, if public investment does not reach these 
remote areas, that very last section you were talking about, 
will these communities ever be served?
    Mr. Brake. They are served now by satellite, except for 
some extremely far north regions of Alaska, is my 
understanding, so perhaps not with as robust a technology; 
perhaps the coverage would be less reliable or the latency 
higher. But the very final last percent satellite remains an 
option.
    Mrs. Walters. OK. Switching gears, Mr. Brake, I have got 
another question for you. In regard to smart infrastructure, 
can you touch upon the advancements we have seen in the 
networks themselves?
    Mr. Brake. I can talk for a while about that. There are all 
sorts of ways in which the underlying technology that underpins 
these broadband networks is continually changing. I do worry, 
especially with the conversation about dark fiber, that there 
is a sense that these are simply dumb pipes, that if we put the 
infrastructure in the ground, then nothing has to change. That 
is simply not the case.
    While a lot of the innovation, to be fair, is happening at 
higher layers of the stack, if you will, there are ways in 
which a lot of the routing and the real smarts of the network 
is being developed within software rather than hardware.
    That is a very important transition that, while pretty 
obscure and technologically advanced, is an important 
transition, and so finding ways in which private sector can 
continue to drive those innovations. And I think the real 
balance is providing Federal funding to continue to see this, 
networks built out into rural areas, but leaving a lot of the 
actual innovation in the core of the network to the private 
sector is the answer.
    Mrs. Walters. OK. I yield back the balance of my time.
    Mrs. Blackburn. Ms. Clarke, you are recognized for 5 
minutes.
    Ms. Clarke. Thank you very much, Madam Chair.
    And I thank our panelists for their expert witness 
testimony this morning.
    Dr. Wack, just following Ms. Matsui's line of questioning, 
rural and urban areas often experience similar socioeconomic 
dynamics. I represent an urban area. So, while we would not be 
defined as unserved, that doesn't mean that there aren't issues 
that also need to be addressed, such as maximum available 
speeds that aren't sufficient to support business needs or 
limited competitive and affordable options.
    Can you speak to the conditions that preceded the city of 
Westminster's decision to explore building its own dark fiber 
network, and why are quality broadband speeds essential to 
businesses in your city?
    Mr. Wack. Thank you, Congressman Clarke.
    As I mentioned before, we went through an exhaustive 
planning process looking at our current levels of service, what 
the satisfaction with those levels of service were in our 
business community and in a residential population. And the 
resounding answer was that they were unsatisfied.
    And I did not mention before, there was also a parallel 
effort working with our incumbent providers to get them to 
upgrade their infrastructure and their service levels, which 
took the better part of a decade, that conversation unfolded, 
and it was all for naught. There was no movement. Lots of 
promises, lots of talk, but no action. So we finally took 
matters into our own hands and started pursuing this project.
    Ms. Clarke. I am also very concerned about redlining and 
the digital divide that seems to continue to grow. While many 
urban areas are defined as served, using the most recent 
definition of broadband from the FCC, I am concerned that there 
could be pockets within these areas that are still ignored by 
service providers. What can be done to address these concerning 
issues to ensure that everyone can have the opportunity to have 
access to broadband services? Dr. Wack.
    Mr. Wack. Thank you. So this is a very important question, 
and I am glad you asked it. One of the things that we hear a 
lot today is an unfortunate conflation of service levels with 
the existence of the infrastructure. And we are debating a lot 
about service levels and the prevalence of service levels, but 
that sort of is making the service tail wag the infrastructure 
dog. And you can't have service at all until you have 
infrastructure.
    And what we have pledged in the city of Westminster is that 
the city is going to extend just the infrastructure but make it 
available to every single person in our community regardless of 
the neighborhood, their economic situation, et cetera, so that 
everybody has access to the infrastructure, which then allows 
service providers to provide whatever level of service they 
think they can make a dollar off of, because we believe in the 
power of the free market to solve these problems.
    It is kind of a waste of time debating what features you 
are going to have on a car when you don't have any roads. We 
want to build the road first, and then we can have that 
conversation about big car, small car, red car, blue car, air-
conditioning, CD. That is later. First, we need to build the 
roads, just as we first need to build the infrastructure and 
make sure that every citizen in our community has access to it.
    Ms. Clarke. So, Dr. Wack, I wholeheartedly agree with your 
statement in your testimony that high-capacity data services 
and the infrastructure to provide them are essential in 21st 
century. I also agree that there is a duty for government to 
ensure that the infrastructure is in place.
    What can the Federal Government do to help local 
municipalities like the city of Westminster achieve wide 
deployment of quality high-capacity data service? I think you 
went into that a bit in your last answer, but if you could just 
drill down a little bit deeper.
    Mr. Wack. Sure. So the city of Westminster ship has sailed. 
We have already committed $21 million to that project, and we 
are going to see it through to the end.
    The barriers for other municipalities to do this really 
boils down to three things. One is their finances. Some 
municipalities unfortunately have a lot of debt, and that is a 
problem. So, to the extent that the Federal Government can help 
them with that, that would lower the barrier for them to do 
these kinds of projects.
    The second thing is they have competing infrastructure 
projects: bad roads, bridges, water systems, et cetera. So, 
again, to the extent that the Federal Government can help 
relieve those problems, it would help.
    The third is political will. They just have to be able to 
feel like they can see this project through, because as I said 
before, these are hard projects. They are taking many years. 
They are expensive. But our model shows that the infrastructure 
can end up paying for itself so that it doesn't unduly burden 
the rest of the municipal finances and still provide open-
access infrastructure to allow the market to develop services 
and pricing levels that are suitable for that opportunity.
    Ms. Clarke. Very well. Just in time.
    I yield back, Madam Chair.
    Mrs. Blackburn. You always do a good job, Ms. Clarke, and 
we appreciate that.
    Mrs. Brooks, you are recognized.
    Mrs. Brooks. Thank you, Madam Chairman.
    Just a couple months ago, the State of Indiana passed 
legislation that empowered the deployment of small cell devices 
to bring 5G technology, similar to what my colleague from 
Sacramento was talking about, to Indianapolis. And our city is 
currently a test site for 5G evolution buildout.
    And while these are incredibly important, much of my 
district is also rural and may not necessarily be experiencing 
the same high-speed broadband access, and, in fact, one out of 
six Hoosiers live in an area of the state without any broadband 
access at all. And so I very much appreciate these discussions, 
particularly for those of us who are in both urban, suburban, 
rural, small-town districts.
    One of the things that I would like to delve into a little 
bit more, and I haven't heard about it talked about enough 
probably, but, Dr. Wack, you talked about the importance of 
public/private partnerships, and I don't think we have really 
talked much about that. And you just talked about barriers in 
response to my colleague from New York's question.
    What would you say are the keys to success, or is it 
overcoming these barriers that you just talked about with 
respect to public/private partnership in this space? Can you 
expand on what you--and I might ask some of the others for what 
they think keys to success could be to have successful public/
private partnerships in this space?
    Mr. Wack. Thank you, Congresswoman. I am sorry.
    The public/private partnerships are all about allocating 
risk appropriately between the partners and making sure that 
the incentives for pursuing the partnership are aligned so that 
both parties get something out of it.
    That is hard to do between the public sector and the 
private sector for a variety of reasons, but it is not 
impossible. And there are many examples of successful public/
private partnerships in a variety of industries. There is no 
one-size-fits-all. Every community is unique. The private 
partners that come to the table are going to have unique skills 
and assets.
    But I guess the key factors for success are appropriate 
risk sharing, that it is not one party is taking all the risk, 
not one party is footing all the bills, not one party is 
accruing all the benefits. Both sides have to have skin in the 
game. Both sides have to be able to gain something from it. But 
what they need from it are very, very different from the public 
sector and the private sector. The public sector doesn't need 
to make money. They just need to solve problems for their 
community. The private sector needs to make money. And there is 
nothing wrong with that.
    And those are some of the challenges that need to be 
overcome sort of culturally between the two partners, getting 
both sides to understand that solving a policy problem really 
doesn't have anything to do necessarily with the bottom line, 
but the private partner has got a bottom line, and the public 
partner has to be cognizant of that.
    Mrs. Brooks. And thank you for that.
    I am curious if any other panelists have any other ideas, 
because I think we need to think very creatively here in trying 
to bring broadband to everyone in the country. Anyone else like 
to add as to what you would like to see if we were to promote 
concepts of public/private partnerships? Yes.
    Mr. Brake. So one thing I agree with Dr. Wack on is there 
is no one model of public/private partnerships. So there are 
different ways in which private industry and local governments 
can work together to try to find ways to accelerate deployment.
    I would say, as a general rule, advancing a public/private 
partnership of this sort of type where the local government 
actually publicly owns the infrastructure itself should be off 
the table when there are already two existing providers in a 
particular area.
    Part of my concern is that, especially when these are 
dynamic markets and two existing providers can be competing on 
other terms other than broadband access itself, if we come in 
with a simple fiber model and you are not competing on video or 
potential wireless play, it can become financially difficult 
for the public offering.
    And I worry that then you see the public fiber model 
looking to pick off the highest revenue entities, such as the 
local government or businesses, and ultimately sees it more 
difficult to serve the overall area outside of where the 
municipal network itself is provided.
    Mrs. Brooks. And very briefly, Ms. Mattey, do you have any 
comments or any thoughts, briefly?
    Ms. Mattey. I think it is very important at the state and 
local level to find providers that actually want to serve the 
area. If it is a provider that doesn't want to serve the area, 
you are not going to get anywhere. And so it is really 
important at the grassroots level, whether it is through 
something that we have heard about today or other methods 
trying to find folks in the community, providers in the 
community, folks that are actually committed to actually making 
this happen.
    Mrs. Brooks. Thank you.
    I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Olson, you are recognized for 5 minutes.
    Mr. Olson. I thank the chair.
    And welcome to our five witnesses. You are 5 minutes away 
from lunchtime.
    Mr. Brake, my first question is for you, sir. You talked 
about the need to have reasonable broadband goals and the 
policy implications of defining broadband as 25 megabits per 
second versus 10 megabits per second. When I talk about 
broadband speed, I get my guidance from my sweet daughter Kate. 
She is 20 years old, a sophomore in college.
    My question is, what type of a service can a consumer, like 
my Kate, expect with a 10/1 connection?
    Mr. Brake. So it is a very good question. So part of the 
context of putting out those sorts of questions is ultimately 
there are tradeoffs involved, right? What kind of service can 
you achieve for 10? You can do a lot of things that are 
economically productive. You might not be able to stream the 
highest definition resolution of video, right.
    And so, when you are looking at providing funds to build 
broadband out to the entire country, I would say we should look 
at providing that sort of level of service, where you can 
participate in the economy, you can do productive activities 
online, but you might not have access to the highest bandwidth 
applications. We should get those out to as many people as 
possible before then turning to the higher bandwidth 
possibilities.
    Mr. Olson. My daughter Kate wants to stream video at the 
highest speed. So it sounds like that is a challenge for Kate.
    Does the average consumer--and I doubt this is my Kate--use 
more than 10/1 on a regular basis?
    Mr. Brake. I am sorry. Can you repeat the question?
    Mr. Olson. Does the average consumer use more than 10/1 on 
a regular basis? Is it normal? Higher than that? Lower?
    Mr. Brake. I would say lower. It depends on what you are 
trying to use it for. If you are doing a large file transfer or 
something like that, over time, you could use up as much 
bandwidth as you have available.
    But for most purposes, no, it would be much less than that. 
You can stream 4k video or at least encode 4k video at 15 
megabits per second. So it is like, we are talking, you can 
easily do probably 720p--you can still do high-definition video 
but not the very highest.
    Mr. Olson. Thank you.
    Ms. Mattey, ma'am, I realize I would be maybe playing with 
you by making you the judge, the jury, the executioner. But 
what suggestion do you have as the Federal Government looks to 
exploit broadband deployment when we have multiple programs at 
the Federal level doing the same jobs? So basically, where will 
you terminate? Cut? What will you restructure? What is your 
vision if you could make the government do what you want us to 
do? Judge, jury, executioner.
    Ms. Mattey. I can't answer that question in 2 minutes.
    Mr. Olson. How about the number one?
    Ms. Mattey. As I said earlier, if Congress chooses to 
appropriate funds and direct those funds to a Federal agency, I 
presume it will be separate from the FCC because those are 
appropriated funds. And I would absolutely mandate that there 
be coordination with the FCC so as to ensure that the Universal 
Service Fund funding is not working at cross purposes with the 
additional infrastructure funding that Congress mandates.
    And I will also say one thing: I too have a sweet Kate, and 
it takes more than 10 when you have got three kids in the 
house.
    Mr. Olson. Oh, boy, probably way more than 10.
    I asked you that question about the judge, jury, 
executioner. What would you do? Mr. Brake, I see a smile on 
your face.
    Mr. Brake. I would agree. I think that one of the most 
important things is coordination with the Universal Service 
Fund, Connect America. But, yes, I think there is widespread 
agreement that money needs to be spent to see additional 
buildout in rural areas. I think getting over that hump is 
challenging enough.
    Mr. Olson. Mr. Wack, you have a chance to file your last 
statement. Anything you want to take out from the Federal 
Government? I know it is not quite your bailiwick, but being a 
local operator, are you concerned about what D.C. is doing to 
the State of Maryland, your business there?
    Mr. Wack. That is also too much for 28 seconds. I would 
just say build a lot of fiber, open it up, refer it to as many 
users as possible and make a commitment to reach every citizen 
of the United States regardless of where they live.
    Mr. Olson. Mr. Darr, Mr. Legg, 15 seconds. Any comments or 
too short of time?
    Mr. Legg. I would say, Congressman, that the need for speed 
is only going to increase. What is available or should be 
considered a minimum standard today will not be the minimum 
standard in a very short period of time: Applications, video, 
things we do over the internet constantly evolving, and we want 
that to be the case. So shoot for as much infrastructure, as 
much fiber as possible, especially with the advent of 5G on the 
horizon.
    Mr. Olson. As a naval aviator, the need for speed is very 
dear to my heart. So thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And we will UC Mr. Tonko and Mr. Griffith to the committee 
to ask questions.
    Mr. Tonko, you are recognized for 5 minutes.
    Mr. Tonko. Thank you, Madam Chair. Thank you for the 
hearing.
    And thank you to our witnesses.
    In the digital age of the 21st century, broadband is 
essential to how we communicate and exchange information, 
conduct business, and engage in the democratic process. From 
young children working on school assignments to college 
students studying for exams to adults working from home or 
running a small business, easy and affordable internet access 
has become an integral part of our daily lives.
    I hear from my constituents all the time about the lack of 
access to broadband internet throughout the region I represent. 
Some of these areas are rural and mostly unserved or 
underserved, and other areas are underserved with a few houses 
having access while many others are left without affordable 
options in sight.
    I have heard from doctors who depend on the internet to 
read X-rays when they are on call, from librarians who see 
students sitting in the parking lot after hours so they can 
finish homework, from workers who are forced to leave their 
home to find high enough speeds so that they can upload or 
download large files. They all ask, when will we have access to 
broadband?
    As a committee, we owe all of these people an answer. I 
appreciate that we are holding this hearing today, but we must 
take action. A lack of access to broadband internet in the 
capital region is one of many reasons why I made it a priority 
to join this very committee.
    Let's work together to invest where we need to so that we 
can give these communities the service they deserve. These 
communities have been asking for help for a very long time, and 
as we heard, it is only going to become exacerbated from this 
point forward.
    I am especially proud that New York State is helping to 
lead the way on expanding broadband, especially in upstate New 
York. This year, the New York congressional delegation helped 
to secure more than $170 million in funding to expand high-
speed internet access in upstate New York.
    This will be added to $500 million that has already been 
set aside by the state. The program has raised the goals for 
internet access speeds with an aim of 100 megabits per second 
across New York and 25 in the most remote and rural areas.
    I hope that, by partnering with states like New York that 
are dedicating their own funds to broadband deployment, we will 
create a positive incentive, encourage other states to create 
their own broadband funding programs.
    I am concerned that some of the census block data that are 
relied upon to determine if communities are served might show a 
misleading picture, especially in communities that may be 
partially served.
    With all that being said earlier, Dr. Wack, you had 
discussed how Westminster was underserved despite meeting 
criteria for adequate broadband coverage. I would like to drill 
down a little deeper on that. Just how did this affect the 
people and businesses of your great community?
    Mr. Wack. In short, it just slows them down. So the 
anecdote I related, that company almost lost that contract 
because they couldn't deliver their product on time, which 
relied on their internet connection. And as I related, they 
ended up mailing it. And again, this was just a few years ago. 
This is the 21st century. That is not acceptable.
    And that is the constraint on future growth. So, sure, some 
of these businesses may be able to get by today, but if we are 
talking about growth, we are talking about growing the economy, 
creating jobs, and creating opportunities for our constituents, 
we have to plan for future capacity. And existing capacity is 
already inadequate.
    Mr. Tonko. What would this mean for home values or funding 
for schools and for students?
    Mr. Wack. For home values, there is data that is out there 
that says that just having a dark fiber connection to the house 
increases the value of the home 3 to 5 percent. We are going to 
test that proposition in Westminster, and we were already 
seeing increased interest in some of the residential 
communities that are already lit. The realty community is 
excited about this. They are starting to market it. And they 
are seeing people coming saying: I want to go to a neighborhood 
that has the fiber service.
    Our schools were already connected because of a Middle Mile 
Project that actually enabled our project. So we have already 
seen the benefit there. But I would imagine that, as the whole 
community gets connected and those kids are able to connect 
back to the school, there will be all sorts of opportunities 
for distance learning enabled by that as well.
    Mr. Tonko. Why don't I just ask the entire team here, what 
progress would you suggest has been made at expanding broadband 
access? What would you cite as the progress for broadband, Mr. 
Legg?
    Mr. Legg. Congressman Tonko, thank you for the question. I 
think that we have seen a rapid expansion of gigabit service in 
urban and suburban areas across the country just in the last 
few years.
    I think that highlights the fact that there is actually a 
growing digital divide in the country where urban and suburban 
areas have gigabit service and rural areas are still struggling 
on dialup or low-grade DSL services. So I think the divide is 
actually increasing.
    It is great for urban and suburban areas. I think that 
there is a need for that speed. Our concern as a nonprofit 
organization is what is happening in some suburban and rural 
areas where they are simply not able to keep up.
    Mr. Tonko. And that is of a great concern.
    Anyone else?
    Mr. Darr. I would like to add that, capturing a picture of 
how the networks are behaving today, we need to keep in mind 
that even though we have accomplished bringing a specific level 
of service to a given point at a given time, that doesn't mean 
that that will be maintained.
    If you take a look at a two-lane, a four-lane freeway and 
it was designed for perhaps 40,000 cars, this is the same 
concept. If you put 70,000 cars on that highway, everything 
slows down. As you attract more people to the network and they 
learn they can do new things, then it is going to create 
further congestion on the network.
    And so, if you are able to provide service to an area at 
10/1 or 25/3, whatever that is defined by, then that can 
degrade over time if you continue to put more and more people 
and more and more load and stress on that network.
    Mr. Tonko. OK.
    Madam Chair, you have been most kind and generous. I have 
exceeded my time, and I yield back.
    Mrs. Blackburn. The gentleman did exceed his time, but that 
is perfectly OK.
    Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair, and 
appreciate all the members of the committee being here.
    We have been monitoring it, the testimony that you all have 
been giving, and so a lot of the things that I am going to ask 
or talk about, you all have already touched upon. But I did 
mention to the chair lady how much I appreciated her holding 
this hearing.
    We have got to have accurate maps, as you all have all 
said. My district, for those of you who aren't familiar with 
it, is the rural corner of Virginia that stretches from 
Kentucky and Tennessee and North Carolina and West Virginia up 
to, I call it the cornucopia of the State, up to the edge of 
Roanoke.
    In it, we have Virginia Tech, a highly wired community. 
And, yet, I have professors outside of Virginia Tech who do not 
have any service at all. It is not a matter of speed; they 
don't have anything. If they want something, HughesNet is their 
only option. Also, in Montgomery County, a few more miles, that 
is about 5 or 6 miles outside of Blacksburg, that we have that. 
Now, part of that has to do with the fact that the district 
does have a lot of mountains and a lot of nooks and crannies. 
But still, in Montgomery County, I have an area where the laid 
wire gets to within about 2 miles of the edge of the county, 
and the people out there have nothing.
    I have got huge sections geographically, maybe not huge 
population, but huge sections geographically that the FCC 
thinks they are serving, and it appears they might. They 
aren't. It is not there. I have looked at their maps, and there 
are lots of areas I know are white with no service that they 
don't seem to understand there is no service.
    Public-private partnerships that you all touched on, I 
think, are very important. We are not going to lay wire to 
every one of those nooks and crannies, but we have got to get 
them some service. And while it may not be as fast as they can 
get it in downtown Blacksburg, it ought to be at least 
serviceable for kids doing their homework.
    And I think all of you agree with that. The question is how 
we do it. And I don't know how we can craft it at the Federal 
level. So, if you all sleep on this and come up with an idea, 
let me know.
    But I happened to stop by a couple weeks ago to see some 
folks in Bland County in their administrative offices. They 
started talking to me, and they had a fellow there from 
GigaBeam, which is a local startup that started in 1994, just a 
computer service company. And they saw that nobody was 
providing internet service so they started doing it where they 
could. It is expensive.
    Bland County has been bartering with all kinds of folks. So 
when they needed to get a tower put up in one location, they 
were telling me they happened to know that a power company 
needed a little easement from them. So they said: We will give 
you the easement if you help us put the tower up. They already 
had all the equipment there.
    Now, I don't know how you put that into a piece of 
legislation, Madam Chairman, because that is just good 
commonsense. The equipment was all sitting there. They said: 
All right, we need your help. We will give you the easement you 
need; you get your guys to put the tower up.
    And, you know, there they made a deal.
    That is the kind of stuff we need if we are going to get it 
out into a lot of the rural areas like mine where it is not 
easy. Bland has got two tunnels so the interstate can get 
through the county. So it is not an easy terrain, but there are 
a lot of good folks there, and they need their kids to be 
educated, and they need the ability maybe to bring in some jobs 
to the areas that aren't flat enough to build buildings on.
    So you all have all touched on that. I want to work with 
you, as I know the chair lady does and the rest of us do, to 
try to solve these problems. And I think the first step is to 
get the mapping done, because if you don't know you have got a 
problem and you are building up the speeds in certain areas of 
the country because you think that is the problem and I have 
got people that don't have--and a fair number have no service 
at all. That is something that we need to be looking at to fix.
    So I am happy to give whatever time I have remaining to if 
anybody wants to respond or make any comments. But, frankly, 
you all have done a great job of getting the information out 
there already. And I am aware of that. So thank you.
    Anybody want to respond?
    Mr. Wack. Congressman Griffith, thank you.
    Mr. Legg. Congressman Griffith, thank you for your 
comments. I grew up just across the Kentucky-Virginia line. I 
understand some of the areas that you are dealing with there.
    I think one of the things that Congress can do is look at 
ways of incentivizing ease of pole attachment, ease of locating 
facilities and easements on public right-of-way within other 
easements that are granted to railroads and to power companies.
    I think there is a lot that can be done. We talked a little 
bit earlier. I think it was Congressman Matsui that raised the 
comment that conduit easements, pole attachments, those are all 
things that actually either inhibit or promote the growth of 
broadband service, and that is certainly something that 
Congress could help with.
    Mrs. Blackburn. The gentleman yields back.
    And seeing no further members wishing to ask questions of 
this panel--and you all have done a wonderful job, and we thank 
you, that you have been here today.
    Before we conclude, I do ask unanimous consent that we can 
submit a letter from the Satellite Industry Association.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. And then I know that the minority has two 
articles to submit regarding the exchange between Mr. Brake and 
Ms. Eshoo, and one relates to chairman--they are both from Free 
Press and one relates to Chairman Pai and his investment 
numbers and the other two AT&T CEO regarding ``Net Neutrality 
Rules Haven't Harmed Investment.'' And I have one article from 
The Verge that cites statements from the CEOs and the deputy 
counsel from Verizon, the CEO from Charter, the CEO from 
Comcast, and AT&T discussing how it did inhibit or slow 
investment.
    Mr. Tonko. If I could just clarify, the minority is asking 
simply for the one Free Press article to be introduced into the 
record.
    Mrs. Blackburn. The one, OK.
    Mrs. Blackburn. Amended. So ordered. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. Thank you.
    Mrs. Blackburn. Pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record.
    And I ask that each of you, upon receiving those questions, 
answer within 10 business days.
    Seeing no further business to come before the subcommittee 
today, we are adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
                                 <all>
</pre></body></html>
